r

!

r
Appendix A

U.S. Court of Appeals Opinion denying COA
dated July 31, 2020

Appendix A

Case l:15-cr-00104-SCJ-AJB Document 188 Filed 07/31/20 Page 1 of 4
Case: 20-10526 Date Filed: 07/31/2020
Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10526-A

WOODROW ANDREW CLARK,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.

Appeal from the United States District Court
for the Northern District of Georgia

ORDER:
Woodrow Clark is a federal prisoner serving 156 months’ imprisonment after a jury found
him guilty of conspiracy to possess with intent to distribute heroin. Mr. Clark filed a pro se
amended 28 U.S.C. § 2255 motion to vacate, set aside, or correct his sentence, raising the following
claims:
(1) counsel was ineffective for failing to file a motion in limine to argue that a
special agent was going to offer expert testimony instead of lay opinion
testimony;
(2) counsel was ineffective for failing to request jury instructions on expert
testimony;
(3) counsel was ineffective for failing to challenge evidence of Mr. Clark’s prior
convictions; and
(4) his cell phone records were inadmissible at trial under Carpenter v. United
States, 138 S. Ct. 2206 (2018).

Case l:15-cr-00104-SCJ-AJB Document 188 Filed 07/31/20 Page 2 of 4
Case: 20-10526 Date Filed: 07/31/2020 Page: 2 of 3

The district court adopted a magistrate judge’s report and recommendation over
Mr. Clark’s objections, denied his § 2255 motion, and denied him a certificate of appealability
(“COA”) and leave to proceed on appeal in forma pauperis (“IFP”). Mr. Clark has appealed and
now moves this Court for a COA, as construed from his notice of appeal, and IFP status on appeal.
To obtain a COA, a movant must make “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). Where the district court has denied a § 2255 motion
on the merits, the petitioner must demonstrate that “reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S.
473,484 (2000). To succeed on an ineffective-assistance-of-counsel claim, a defendant must show
both that (1) his counsel’s performance was deficient, and (2) the deficient performance prejudiced
his defense. Strickland v. Washington, 466 U.S. 668, 687 (1984). As to the prejudice prong, the
petitioner must show that there is a “reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different.” Id. at 694.
Here, reasonable jurists would not debate the district court’s denial of Claims 1, 2, and 3.
As to Claim 1, Mr. Clark failed to show that there was a reasonable probability that a motion in
limine would have made a difference in the outcome of his proceedings, as counsel did object
when the government attempted to elicit expert testimony, and the trial court sustained the
objection and limited the special agent’s testimony to lay opinion testimony. See id. Regarding
Claim 2, Mr. Clark failed to show that there was a reasonable probability that a request for an
expert-testimony instruction would have been granted, as the trial court limited the special agent’s
testimony to only lay opinion testimony, and this Court determined on direct appeal that no expert
testimony was offered at trial. See id. As to Claim 3, Mr. Clark failed to show that there was a
reasonable probability that the trial court would have granted a motion to exclude, or sustained an

2

Case l:15-cr-00104-SCJ-AJB Document 188 Filed 07/31/20 Page 3 of 4
Case: 20-10526 Date Filed: 07/31/2020 Page: 3 of 3

objection to, the evidence of his prior convictions because counsel did file a motion in limine to
exclude such evidence, and the trial court denied the motion. See id.
Furthermore, reasonable jurists would not debate the district court’s denial of Claim 4. The
record reflects that law enforcement officers obtained a search warrant before searching the data
and contents of Mr. Clark’s cell phone. See Carpenter v. United States, 138 S. Ct. at 2214, 2221
(stating that police officers must generally obtain a search warrant supported by probable cause
before searching the contents or data of a cell phone). Moreover, law enforcement officers had
probable cause to obtain a warrant to search the cell phone because it was found in a truck with
two kilograms of heroin and $24,000 of loose currency during the investigation into the
heroin-distribution conspiracy. See United States v. Brundidge, 170 F.3d 1350, 1352 (11th Cir.
1999) (“Probable cause to support a search warrant exists when the totality of the circumstances
allow a conclusion that there is a fair probability of finding contraband or evidence at a particular
location.”).
Accordingly, Mr. Clark’s COA motion is DENIED. His IFP motion is DENIED AS
MOOT.
______ /s/ Jill Pryor_______
UNITED STATES CIRCUIT JUDGE

3

*

<

f

if

Appendix B
Appendices B-l to B-9
Order Adopting Magistrate's Recommendation
filed January 22, 2020

V

■v

Appendix B

Case l:15-cr-00104-SCJ-AJB Document 176 Filed 01/22/20 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

WOODROW ANDREW CLARK,

CRIMINAL ACTION NO.
1:15-CR-104-SCJ-2
i

Movant,

i

CIVIL ACTION FILE

v.
UNITED STATES OF AMERICA,

NO. 1:18-CV-4189-SC J

i

Respondent.

JUDGMENT
The Court having DENIED the motion filed pursuant to Title 28, United States
Code, Section 2255,
Judgment is hereby entered in favor of the Respondent and against the Movant.
Dated at Atlanta, Georgia this 22nd day of January, 2020.

JAMES N. HATTEN
CLERK OF COURT

By:

Filed: January 22, 2020
Entered:
In the Clerk's Office
James N. Flatten
Clerk of Court
By: s/R. Spratt
Deputy Clerk

s/R. Spratt
Deputy Clerk

>

Case l:15-cr-00104-SCJ-AJB Document 175 Filed 01/22/20 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
WOODROW ANDREW CLARK,
Movant,
CRIMINAL ACTION NO.
l:15-CR-104-SCJ-2

v.

UNITED STATES OF AMERICA,
Respondent.
ORDER
Presently before the Court is the Magistrate Judge’s Report and
Recommendation (R&R) recommending that the pending 28 U.S.C. § 2255 motion to
vacate be denied. [Doc. 171]. Movant has filed his objections in response to the R&R.
[Doc. 173].
A district judge has broad discretion to accept, reject, or modify a magistrate
judge’s proposed findings and recommendations. United States v. Raddatz, 447 U.S.
667,680 (1980). Pursuant to 28 U.S.C. § 636(b)(1), the Court reviews any portion of
the Report and Recommendation that is the subject of a proper objection on a de novo
basis and any non-objected portion under a “clearly erroneous” standard, “Parties
filing objections to a magistrate’s report and recommendation must specifically
identify those findings objected to. Frivolous, conclusive or general objections need
not be considered by the district court.” Marsden v. Moore, 847 F.2d 1536,1548 (11th
Cir. 1988).
Appendix B
AO 72A
(Rev.8/8
2)

s

Case l:15-cr-00104-SCJ-AJB Document 175 Filed 01/22/20 Page 2 of 5

On June 28, 2016, after a trial, the jury found Movant guilty of conspiracy to
possess with the intent to distribute heroin, in violation of 21 U.S.C. §§ 841(a)(1) &
(b)(1)(A) and 846. [Docs. 8, 124]. On September 12, 2016, this Court sentenced
Movant to 156 months of incarceration to be followed by five years of supervised
release. The Eleventh Circuit affirmed. See United States v. Clark. 710 Fed. Appx.
418 (11th Cir. 2017), cert, denied, 138 S. Ct. 2663 (2018). Movant then filed the
instant § 2255 motion, raising four grounds for relief.
In the R&R, the Magistrate Judge determined that Movant had failed to establish
his Ground 1 claim that his trial counsel was ineffective for failing to file a motion in
limine to challenge the expert testimony of a special agent witness because he had not
been qualified as an expert. The Magistrate Judge concluded that Movant could not
establish a claim of ineffective assistance because his counsel objected when the
Government’s counsel appeared to ask the agent for an expert opinion at trial, and this
Court sustained the objection. [Doc. 165 at 4-5].
In his Ground 2, Movant claimed his trial counsel was deficient for failing to
request a jury instruction on expert testimony, but as explained by the Magistrate
Judge, no experts testified at Movant’s trial. In Ground 3, Movant contends that that
his counsel failed to challenge evidence of Movant’s prior convictions. Again,

2

A0 72A
(Rev.8/8
2)

.

y

Case l:15-cr-00104-SCJ-AJB Document 175 Filed 01/22/20 Page 3 of 5

Movant’s claim is belied by the record because Movant’s counsel filed a motion
seeking to exclude evidence of Movant’s prior convictions.
In Ground 4, Movant claims that his cell phone records were improperly
admitted into evidence. However, according to the Magistrate Judge, the case Movant
relies on, Carpenter v. United States. 138 S. Ct. 2206 (2018), is not applicable.
Carpenter stands for the proposition that a warrant is required to obtain cell site
location information from a wireless telephone service provider, but the evidence
admitted at Movant’s trial was taken directly from the phones found in Movant’s car
after his arrest, and law enforcement officials had obtained a warrant to search the
phone. [Doc. 165 at 17-18].
In his objections, Movant first contends that the Magistrate Judge erred in
concluding that he is not entitled to reliefwith respect to his Grounds 1 and 2 regarding
his claims that his trial counsel failed to object to the expert testimony of a law
enforcement agent and failed to seek ajury instruction on expert testimony. Petitioner
contends that expert testimony was given at his trial arid that trial counsel failed to
keep it out and should have sought an instruction. However, Movant challenged the
purported expert testimony in his appeal, and the Eleventh Circuit held that because
the agent’s “testimony was based on his perception of [Movant]’s actions, it was
admissible as lay opinion testimony under Rule [of Evidence] 701.” Clark. 710 Fed.
3
A0 72A
(Rev.8/8
2)

. ^

Case l:15-cr-00104-SCJ-AJB Document 175 Filed 01/22/20 Page 4 of 5

Appx. at 422 (11th Cir. 2017). Granting relief to Movant with respect to either of his
first two grounds for relief would require this Court to “reverse” the Eleventh Circuit’s
determination that there was no expert testimony at Movant’s trial. “Once a matter has
been decided adversely to a defendant on direct appeal, it cannot be re-litigated in a
collateral attack under section 2255.” United States v. Nvhuis. 211 F.3d 1340, 1343
(11th Cir. 2000) (citation and quotation omitted). As this Court is bound by the
Eleventh Circuit’s determination that the agent provided lay testimony, Movant cannot
demonstrate that he was prejudiced by his trial counsel’s failure to challenge that
testimony as expert testimony.
Movant’s objection to the Magistrate Judge’s determination regarding his
Ground 3 is entirely conclusory and thus does not merit discussion. Marsden. 847 F.2d
at 1548. Finally, in his objection to the Magistrate Judge’s conclusion that Movant is
not entitled to relief with respect to his Ground 4 claim that his cell phone records were
improperly admitted, Movant argues that the Supreme Court in Carpenter did state that
data from cell phones are protected by the Fourth Amendment. Although Movant is
correct, see Carpenter. 138 S. Ct. at 2214 (“[Pjolice officers must generally obtain a
warrant before searching the contents of a phone.”), the record reflects that the agents
did obtain a warrant prior to searching Movant’s phone, [Doc. 149 at 98], and the data
from the phone were thus not subject to exclusion at Movant’s trial.
4
AO 72A
(Rev.8/8
2)

'V*

Case l:15-cr-00104-SCJ-AJB Document 175 Filed 01/22/20 Page 5 of 5

Having reviewed the R&R in light of Movant’s objections, this Court concludes
that the Magistrate Judge’s findings and conclusions are correct. Accordingly, the
R&R, [Doc. 171], is hereby ADOPTED as the order of this Court, and the 28 U.S.C.
§ 2255 motion to vacate, [Doc. 163], is DENIED.
For good cause shown, Movant’s motion for an extension to file his objections,
[Doc. 174], is GRANTED nunc pro tunc.
This Court further agrees with the Magistrate Judge that Movant has failed to
raise any claim of arguable merit, and a Certificate of Appealability is DENIED
pursuant to 28 U.S.C. § 2253(c)(2).
The Clerk is DIRECTED to close Civil Action Number 1:18-CV-4189-SCJ.
IT IS SO ORDERED, this 22nd day of January, 2020.

s/Steve C. Jones
STEVE C. JONES
UNITED STATES DISTRICT JUDGE

5

AO 72A
(Rev. 8/8
2)

Appendice B-l

Order denying Motion to Object and Correct Sentence
after Denial of 2255 pursuant to Rule 32(a) dated
March 20,. 2020

Appendice B-l

V

Case 1:15-cr-00104-SCJ-AJB Document 187 Filed 03/20/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
WOODROW ANDREW CLARK,
Movant,
CRIMINAL ACTION NO.
1:15-CR-104-SCJ-2

v.

UNITED STATES OF AMERICA,
Respondent.
ORDER
As this Court has denied Defendant a certificate of appealability pursuant to 28
U.S.C. § 2253(c)(2), [Doc. 175], this Court now CERTIFIES, pursuant to 28 U.S.C.
§ 1915(a)(3), that Defendant’s appeal is not taken in good faith, and leave to proceed
in forma pauperis on appeal, [Doc. 184], is DENIED. Further requests to proceed in
forma pauperis on appeal should be directed to the United States Court of Appeals for
the Eleventh Circuit in accordance with Rule 24 of the Federal Rules of Appellate
Procedure.
Having reviewed the motion that Defendant styles as a “Motion to Object and
Correct Sentence After Denial of2255 Pursuant to Rule 35(a),” [Doc. 186], this Court
concludes that the motion is, in fact, a second, successive motion for reconsideration
of the order denying relief under 28 U.S.C. § 2255. This Court has reviewed that
motion and concludes that Defendant has not established any intervening change in
controlling law or newly available facts that justify reconsideration, and, despite his

A0 72A
(Rev.8/8
2)

Appendice B-l

Case l:15-cr-00104-SCJ-AJB Document 187 Filed 03/20/20 Page 2 of 2

arguments otherwise, he has failed to show that the denial of his § 2255 motion was
based on clear error or resulted in manifest injustice. Richardson v. Johnson, 598 F.3d
734, 740(11th Cir. 2010).

Accordingly, the motion, [Doc. 186], is DENIED. The Clerk is DIRECTED
to SEAL Docket Entry 184.
SO ORDERED, this 20th day of March, 2020.

s/Steve C. Jones
STEVE C. JONES
UNITED STATES DISTRICT JUDGE

2

A0 72A
(Rev.8/8
2)

>

*\

Appendice B-2

Motion to Object and Correct Sentence
after Denial of 2255 pursuant to Rule
35(a) filed March 13, 2020

\

Appendice B-2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

WOODROW ANDREW CLARK,
Case No • • 1:15-CR-104-SCJ-2
Civil Act. No.: 1:18-CV-4189-SCJ

v.
UNITED STATES OF AMERICA.

Motion to Object and Correct
Sentence After Denial of 2255
Pursuant to Rule 35(a)

Comes

now,
on

(Petitioner")

Woodrow A.
this

/, S

Clark,

day

of

(hereinafter

March,

2020,

known

respectfully

objecting to this Honorable Court's order dated March 9,
denying

Petitioner's

misplaced

Petitioner's

motion

to

intent

reconsider.

and

This

correction

of

as

2020,

court

has

Petitioner's

sentence is clear error that can be corrected pursuant to Fed.
Rule

Crim.

Proc.

35(a).

In

support,

Petitioner

states

as

follows:

First,

Petitioner

was

not

claiming

the

court

failed

to

conduct a de novo review, only that a de novo review belonged to
a higher court, not the district court that imposed the sentence
committing

the

mistakes

that

warrants

the

exe^i'“'?j

of

Petitioner's appellant rights.
Second,

the

record

is

clear

of

counsel's

mistakes

specifically pointed out in both Petitioner's 2255 and the motion
to reconsider.

However, it is Petitioner's contention the court
Appendice B-2

has overlooked Petitioner’s claim, having been ambushed with the
government's witness, being a decorated agent, being allowed to
give testimony that was vital to the jury as a lay person that
facts or evidence that persuaded the

was an opinion and not

jury to a conviction, because counsel did not know how to argue
against what was relevant ground facts for the government under
the

rules

knowledge

of

lay person and required counsel

of

legal principles and

law,

to have

sound

as well as skills of

persuasive, oral presentation during the trial.
Third,
refused

to

Petitioner's: claim is
allow

Petitioner

to

sound
take

that counsel said he

the

70

month plea

for

accessory after the fact and in light of Haines v. Kerner, Supra,
this court should have applied the "less stringent" standard in
this instance as it is clear the evidence was overwhelming as
recognized by the court and applicable in accordance with Haines
v. Kerner under Petitioner's claim of ineffective assistance of
counsel, the court authorized to apply principles applicable law
that

includes

counselor's

those

not

mentioned

insistence of not

by

Petitioner.

Thus,

letting Petitioner take the 70

months while also allowing this claim of ineffective assistance
of

counsel

as

not

new,

but

a

vital

point

of

ineffective

assistance of counsel that warrants an evidentiary hearing.
Finally, the record is also clear of this Honorable Court's
error, knowing the prior used to insure Petitioner was a Criminal
History Category IV was illegal, yet, allowed the government to
use

it

opposed

for
to

scoring Petitioner

to receive

the most

time,

as

doing what was right, knowing not only Petitioner

2

would be resentenced,

but a prior cannot be simply limited to

having been pled to, but must also have to be released from the
commitment of the offense (case law omitted).

It is held in

Clisby v. Jones, 960 F.2d 925, 05/04/1992, the court must address
all issues on its merits, the last of the aforementioned was not,
and it was his honor that stated on the record that he had a
problem with using that illegal prior conviction for Criminal
History Points.
Clear error requires an inquiry to questions of facts that
prejudice the proceedings, and too, reviewed under clear error.
Using an agent as a lay person to allow an opinion to be used as
evidence to obtain a conviction was based on nonfactual evidence.
Limiting

the

ineffective

assistance

of

counsel

to

the

standards outside the holding held by the Supreme Court is also
clear error, when the record is clear of counsel's mistakes, and
his

honor's

recognition

of

them,

along with the court's

not

addressing all the claims based on the merits presented, also in
accordance to the holdings in Clisby v. Jones.

(See also Fed.

R.Crim.Proc. 52(b)).
Therefore,
denying

the

while Petitioner

motion

to

objects to the court's order

reconsider without addressing all

the

merits and not adhering to the "less stringent" standard held in
Haines v. Kerner, Supra!, Petitioner prays this Honorable Court
correct

the

imposed

sentence,

recognizing

the

clear

errors

presented herein.
Respectfully submitted,
/s/

/

Woodroft Andfew Clark, #66836-019
3

Un-Notarized Oath
I, Woodrow Clark, on this 13th day of March, 2020, do hereby
declare

under

the

penalties

of perjury

that

the

information

herein is true and correct to the best of my knowledge.

'ilM

}
. /s/ '
Wbodrow A. CXhr4c-,^£6683h^.019
Jesup, Federal SatellTte-f, ow
2680 U.S. Highway 301 South
Jesup, GA 31599

Certificate of Service
I, Woodrow Anthony Clark, on this 13th day of March, 2020,
do hereby certify that a copy of the foregoing motion has been
sent by institutional mail to:
Assistant U.S Attorney Angela Adams
75 Spring St.
Atlanta, Georgia 30303
/1

/s/ V/im

S

yy

Woodrow A. Clark
#66836-019
Jesup, Federal Satellite Low
2680 U.S. Highway 301 South
Jesup, GA 31599

4

Appendice B-3

Order Denying Reconsideration of Denial for
Certificate of Appealability filed March 9,
2020

\

Appendice B-3

y

Case l:15-cr-00104-SCJ-AJB Document 185 Filed 03/09/20 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
WOODROW ANDREW CLARK,
Movant,
CRIMINAL ACTION NO.
1:15-CR-l 04-SCJ-2

v.
UNITED STATES OF AMERICA,
Respondent.
ORDER

On January 22, 2020, this Court entered the order, [Doc. 175], adopting (over
Movant’s objections) the Magistrate Judge’s recommendation (R&R) that Movant’s
28 U.S.C. § 2255 motion to vacate his conviction and sentence be denied. Also in that
order, this Court denied Movant a certificate of appealability. Movant has now filed
two motions: a motion for reconsideration, [Doc. 177], and a motion to clarify, [Doc.
178].
In his motion for reconsideration, Movant contends that (1) this Court failed to
conduct a de novo review of the record with respect to, those portions of the R&R to
which Movant objected, (2) he is entitled to a certificate of appealabilty with respect
to his claims of ineffective assistance of counsel, and (3) he raises a new claim that his
trial counsel was ineffective for failing to properly advise him regarding the
Government’s plea offer of a seventy-month sentence. Movant also generally re­
argues his grouncls for relief.

AO 72A
(Rev, 8/8
2)

Appendice B-3

Case l:15-cr-00104-SCJ-AJB Document 185 Filed 03/09/20 Page 2 of 3

However, Movant is not entitled to reconsideration of the denial of his § 2255
motion because he has not identified any intervening change in controlling law or
newly available facts that justify reconsideration, and he has failed to show that the
dismissal was based on clear error or resulted in manifest injustice. Richardson v.
Johnson. 598 F.3d 734,740 (11th Cir. 2010). Specifically, this Court responds that it
did perform the requisite de novo review of the R&R in light of Movant’s objections,
and his ineffective assistance of counsel claims are clearly unavailing such that a
certificate of appealability is not warranted. With respect to his new claim, Movant
has not filed a motion to amend his complaint.1 Moreover, the new claim is untimely
as it was filed after the expiration of the one-year statute of limitations applicable to
§ 2255 motions, and the new claim regarding Movant’s trial counsel’s failure to
properly advise him regarding a plea offer clearly does not “relate back” under the rule
announced in Davenport v. United States. 217 F.3d 1341, 1344 (11th Cir. 2000).

1 Under Rule 12 of the Rules Governing Section 2255 Proceedings, a district
court may apply the Federal Rules of Civil Procedure consistent with the Rules
Governing Section 2255 Proceedings. Fed. R. Civ. P. 15(a) permits a party to amend
a pleading once “as a matter of course at any time before a responsive pleading is
served,” or, otherwise, “only by leave of court or by written consent of the adverse
party.”
2

AO 72A
(Rev.8/8
2)

*

Case l:15-cr-00104-SCJ-AJB Document 185 Filed 03/09/20 Page 3 of 3

In his motion to clarify, Movant merely seeks to correct typographical errors that
he made in his original motion for reconsideration. This Court will accept Movant’s
corrections.
Accordingly, as discussed above, IT IS HEREBY ORDERED that Movant’s
motion for reconsideration, [Doc. 177], is DENIED, and his motion to clarify is
GRANTED.
SO ORDERED, this 9th day of March, 2020.

s/Steve C. Jones
STEVE C. JONES
UNITED STATES DISTRICT JUDGE

3

AO 72A
(Rev. 8/8
2)

Appendice B-4

Motion to Reconsider and Objections to Denial Order
filed January 31, 2020

Appendice B-4

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
\

WOODROW ANDREW CLARK
Criminal Action No.: 1:15 CR-104-SC7-2^
Civil Action File No.: 1:18-CV- 4189-SCCT

v.
UNITED STATES OF AMERICA

Motion To Reconsider And
Objections to Denial Order

\

Comes now, Woodrow A. Clark,
2020,

(herein

Honorable

Court

01/22/2020
looked

known
to

as

on this 31st day of January,

Movant),

reconsider

respectfully

it's

denial

of

Moving

this

Movant's

2255,

where as this Honorable Court has mistakenly over-

important

facts

and

law.

While

Movant

respectfully

objects to the court's denial and its reasoning, Movant reminds
this

Honorable

"less

Court of

stringent"

its neglecting

standard

accorded

the application of the

pro

se

litigants,

Movant

litigating pro se and the court being obligated to consider facts
and points of law that includes those not mentioned by Movant.
(Haines

v.

Kerner,

relying

on

inmate

commissary,
received

for

S.Ct.
help

(cookies,

who's

cakes,

their service.

5?V-

(1972).

primary
potato

concern

chips,

Therefore,

Movant

the

is

etc...),

is

how

now
much

can

be

Supreme Court has

held that prisoners, like Movant,■ be held to a lessor standard of
pleadings to the court,

than attorneys, allowing broad latitude

in ensuring that

like Movant get a fair

those

exercise their First Amendment right of redress.
reconsideration, Movant states as follows:
Appendice B-4

opportunity

to

In support of

Statement of Facts
On or about March
order

to borrow money,

9,

2015, Movant visited his brother in

The brother of Movant had his brother

ride with him, who left Movant in the vehicle for a substantial
amount of time,
gas.

and Movant decided to leave to get food and/or

Movant returned to get his brother about an hour later, and

they left.
getting

The agents attempting to pull them over, ultimately

into

a

finding heroin,

chase

and

getting

arrested,

with

the

agents

charging Movant with Possession with Intent to

Distribute at least 1 kilogram of Heroin; and ct(2) (Conspiracy
to Possess with the Intent to Distribute at least 1 kilogram of
Heroin).

Movant

ultimately

Amendment to a trial,
with

proceeded

to

being convicted

Intent to Distribute Heroin and

exercise

his

Sixth

of conspiracy to Posses
sentenced to 156 months,

after objections were filed for the use of priors that Movant was
not released from the commitment of the offense.
The Eleventh Circuit Court of Appeal affirmed the conviction
after a direct appeal in 2017, and the Supreme Court denied cert
in 2018.

Statement of the Case

After finding institutional help, Movant filed a timely 2255
claiming counsel

was

ineffective

in Grounds

1-3 and Ground 4,

cell phone records improperly admitted into evidence.
The Honorable Court misplaced the purpose of de novo review.
As

Black's

Law defines

it as:

de novo

2

anew;

while de novo

review is a proceeding undertaken to have a decision reconsidered
by a higher authority;
agencies

decision

esp., the submission of lower court's or

to

a

higher

court

for

review

and

possible

reversal. Movant respectfully objects to this do novo review as
it is required by a higher court in accordance with federal rules
of App. Proc., where as it is highly inconceivable to think this
Honorable Court would rule against his peers.
of

law

is

subject

to

de

novo

review.

Ruling on question
Movant's claim

of

ineffective assistance of counsel being alleged requires at least
a

certificate

where

as

defense

of

the

counsel

counsel's

defined requires
knowledge

appealability beyond an evidentiary hearing,

of

clause

act

in

of

the

the

Sixth

capacity

Amendment

requires

of advocacy.

Advocacy

a thorough grounding in relevant facts,
applicable

legal

principles

and

sound

skills

of

persuasive, written and oral presentation.
Testimony in open court should be regarded on the basis of
findings

of

surveilance

facts.
is

evidence.

If

expert or

An

expert

or

layman

opinion

of

counter

simply an opinion that is not based on factual
counsel

had

argued

layman personnel,

against

opinions

stated

by

it is more likely the trial would

have resulted in an acquittal or at least a mistrial, had counsel
acted

in

the

Amendment's

role

counsel

of

an

advocate

clause.

as

Clearly,

required
the

surpassed where Ground One is concerned,
and

defense

counsel

having

allowed

the

in

the

Strickland

Sixth

test

is

This Honorable Court
agent's

opinionated

testimony of counter surveilance carried a great deal of weight,
expert

of

lay

person,

that

could

3

only influence a jury that

undoubtedly would have more respect for an officer/agent of the
court's opinion.
Clearly the role of an advocate on Movant's behalf is void,
despite

an

objection,

sound knowledge of

counsel

legal

was

principles

unable

to give persuasive,

with a presentation for a

mistrial, because the testimony given by the respected agent was
in

itself

damaging,

impartiality as

it

precluding Movant from proceeding without
is apparent the jury was already persuaded

with the agent's opinion, absent specific instruction to a jury,
clearly

making

Ground

Two

ineffective

assistance

of

counsel

worthy of an evidentiary hearing covering the two prong test of
Strickland,

counsel

acting

as

anything

but

an

advocate

in

and the use of .priors

to

Movant's behalf.
In

reconsidering

Ground

Three,

increase Movant's sentence range from criminal history category
IV,

that

should

be

II,

along

with

the

increase

of

the

base

offense level after the court considered objections, violates the
Sixth

Amendment's

Constitution

right

guarantees

(Strickland,
fair

trial

466

U.S.

through

at

the

685

due

(The

process

clauses, but it defines the basic element of a fair trial largely
through several provisions of the Sixth Amendment, including the
"Counsel Clause").
trial,

During the sentencing phase after loosing at

the government decided to instigate an increase in both

the base offense level and criminal history category, causing a
substantial

increase

in

the

recommended

guideline

range

of a

, sentence to be imposed based on facts that should have been given
to

a

jury.

(2013))(holding:

(Aileyne,
The

570

legally

U.S.

prescribed

4

99;

133

range

is

S.Ct.
the

2151
penalty

affixed to

the crime...it follows that facts increasing either

end of range produces a new penalty and constitutes an ingredient
of

the

offense.).

Consequently,

the

Sixth Amendment requires

that "counsel act in the role of advocate."
648, 656; 104 S.Ct. 2039 (1984).

(Chronic 466 U.S.

Although defense counsel filed

objections concerning specific priors, it's clear he did not act
in

the

role

requires

of

advocate

defense

counsel

required
to

be

in the counsel clause

thorough

with relevant

that

facts,

sound knowledge of applicable legal principles as the holdings in
the aforementioned and several other
relevant at and after trial.

Supreme Court cases

were

(Jones v. U.S., 135 S.Ct. 8; 190

L.Ed.2d 279 (2014), held the use of priors to increase a sentence
from

its

prescribed

range

must

be

determined

by

a

jury).

Movant's sentence was increased by both the base offense level
and

criminal

history

Court can apply the
litigants
1502

category.
"less

This

stringent"

is

this

Honorable

standard accorded pro-se

in light of Haines v. Kerner,

(1972),

where

404 U.S. 519; 92 S.Ct.

where this Honorable Court asked defense counsel,

"Do you agree or disagree.

It's your burden to show he was not

represented at sentencing."

The court made a valid claim, Movant

had not served on that term of imprisonment.

It is further held

that one must be released from the commitment of an offense for
it to be a prior, otherwise, said prior could be re-opened and a
trial ensued.
Otherwise,
prior offense.

there is no longer any rights available to the
(case law omitted).

Defense counsel's flaw at

its lack of knowledgeable, applicable law is vital in this case

5

where

as

Movant

determining
warranted

being sentenced

the

six(6)

based

on

level

judge

according

increase

found

facts

to

to
of

the
36

the

court's

base

offense

and

allowed

the

conviction to stand as a prior for a criminal history category of
IV is clearly contrary to the Supreme Court's holding in Alleyne,
570

U.S.

99

(2013) and Jones,

Honorable Court not used

its

offense level of 30 stands,
because his honor
prior

that

had a

clearly

135

judge

S.Ct. 8
found

(2014).

facts,

the

sentencing

this

Movant's base

while using its discretion,

problem with the use

made

Had

of

simply

the specific

procedure

unfair

and

biased, (see sentencing transcripts, page 21, line 1-5), Movant's
criminal

history

category

would

have

been

II,

and

with

his

honor's decision to vary downward five(5) levels in the interest
of

fair

play,

it is

easy

to

see

why

70

months

government's recommended sentencing offer, originally.
pled

to

accessory

Movant asked about

after

the fact,

it

is

was

the

If Movant

worthy to note when

the 70 month offer, counsel said he would not

allow him to take such an offer, besides it was

no longer on the

table.
Never-the-less, this Honorable Court must recognize defense
counsel's failure to understand relevant law relating to expert
testimony at trial and sentencing phase also part of juries duty
is

tantamount

to

counsel

failing

to

object,

further to say not knowing what more to say.

having

nothing

(See Ramirez at 799

F.3d at 855; an attorney's failure to object to an error in the
court's guidelines calculation that results in a longer sentence
for

the defendant can demonstrate constitutionally

performance).

(See also Hinton, 134 S.Ct. at 1089).

6

ineffective

Counsel's

ineffectiveness

is

further

compounded

by

not

advising Movant properly concerning the 70 month for to plea to
accessory after the fact as it was impossible for Movant to be
treated any fairly or win at trial.
synonomous

to

This

lack of advice is

the holding in the Lafler supra!

When counsel

failed to advise the defendant of the government's offer that was
more beneficial than what was eventually decided on.

(Lafler v.

Cooper, 566 U.S. 156, 162; 132 S.Ct. 1376 (2012)).
In

the

instant

case,

this

court

can

limit

its

reconsideration to the issues/Grounds argued if this Honorable
court deems that Ground Four concerning the warrant for the cell
phone covers the information retrieved and said information was
culpable for the prosecution,

and conviction as facts without

creating assumptions that swayed the jury.

Relief Sought

In reconsidering,

it is Movant's contention this Honorable

Court has mistakenly overlooked vital flaws this Honorable court
could and must consider applying the less "stringent standard"
pro se litigants are held to and order an evidentiary hearing in
order to correct the impartiality rendered at sentencing that his
honor recognized.
Movant contends this Honorable Court should allow correcting
the record where as the prior that extended Movant to criminal
History category IV has been re-visited and because Movant was
resentenced due to Movant not being at the sentencing that his

7

honor allowed to be scored as a prior,
correction of

it stands to reason the

the sentence resentencing Movant allows for this

Honorable Court to correct said sentence Movant being sentenced
after this Honorable Court imposed its sentence of 156 months.
While

Movant

is

discretionary
government's

authority

of

of

his

sentencing

recommended

never-the-less,
knowledge

appreciative

guideline

defense counsel's
applicable

honor's

Movant
range

of

well

using

his

below

the

262-327

months,

failure to object with sound

principles

effected

the

substantial

rights of Movant, the prejudice being Movant being sentenced to a
substantial more amount of incarcerated time, a substantial error
this Honorable Court cannot allow to go uncorrected.
Had the court used the criminal history category of II, base
offense level of 31, with a sentencing guideline range of 121 to
151 months,
base

or instead of using judge found facts and left the

offense

level at 30 criminal history category II,

guideline range of

108

to

135 months,

with a

Movant's sentence would

have been substantially lower, be it 122 months or 109 months,
both reflecting one month above the bottom of the aforementioned
guideline range.
Finally, with the court varying 5 levels, without the judge
found facts increase, Movant's base offense level from 30 to 25,
criminal
disagreed

history
with

category
the

II,

government's

the

Honorable

reasoning

and

Judge

having

recommended

guideline range of 262 to 327 months, a sentence in line with his
honor's thoughts at the time of sentencing of a range of 63 to 78
months would be more consistent with

8

the holding in Renteria-

)

Martinez, 847 F.3d 297, 302 when the government alleges reversal
is not warranted if the error does not "shock the conscience of
the common man, serve as a powerful indictment against our system
of justice,
integrity

or seriously call into question the competence or

of

the district judge."

However,

not only was the

district judge in disagreement or shock about the government's
recommendation, the Supreme Court rejected the "shock conscience"
standard,

holding it is "unduly restrictive" and "burdensome,"

explaining that in the ordinary case • • . the failure to correct a
plain guidelines

error

that affects a defendant's substantial

rights will seriously affect the fairness, integrity, and public
reputation of judicial proceedings.

2018 Lexus U.S Lexis 3690

Rosales-Mireles, 138 S.Ct. 1897 201 L.Ed.2d 376 (June 18, 2018).
It is clear of a substantial error in the instant case that need
only this Honorable Court to correct as Movant has the right to
be free and serve a legal,

fair or enhanced sentence that is

authorized by Congress and reasonably imposed in accordance to
federal rules of procedure and the Constitution's due process
clause and equal protection clause.
Wherefore, Movant prays this Honorable Court reconsiders its
denial of Movant's reconsideration motion and apply the "less
stringent standard" accorded pro-se litigants and issue an order
for an evidentiary hearing in order to correct the substantial
error

allowed

by

the

ineffectiveness

recognized and was unable to

of

counsel,

correct until now.

this

court

All in the

interest of this Honorable Court's integrity and judicial economy
to eliminate any and all future litigation.

9

Respectfully submitted,

/s/ O/JfrrM^

___________

Wbddrow AndreviMjiark, #66836-019

Un-Notarized Oath
I, Woodrow A. Clark, on this 31st day of January, 2020, do
hereby

declare

information

under

herein

is

the

penalties

true

and

of

correct

perjury
to

the

that
best

of

the
my

knowledge.
/s/

Woodrow A. Clark, #66836-019
Jesup, Federal Satellite Low
2680 U.S. Highway 301 South
Jesup, GA 31599

Certificate of Service
I, Woodrow Anthony Clark, on this 31st day of January, 2020,
do hereby certify that a copy of the foregoing motion has been
sent by institutional mail to:
Assistant U.S. Attorney Angela Adams
75 Spring St.,
Atlanta, Georgia 30303
/s/
Wbodrow A. Clark,
#66836-019
Jesup, Federal Satellite Low
2680 U.S. Highway 301 South
Jesup, GA 31599

10

' Appendice B-5

Movant's Objections to Magistrate Judge's Final
Report and Recommendation filed December 2, 2019
/

Appendice B-5

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA,
ATLANTA DIVISION

Woodrow Andrew Clark,
)
Movant,)
)
)
)
)
)
)
)
)

v.

CV-No. l:18-cv-4139-SCJ-AJB

United States of America,)
Respondent.)

MOVANT'S OBJECTIONS TO MAGISTRATE
JUDGE'S FINAL REPORT AND RECOMMENDATION

To the Honorable Alan J. Baverman, U.S. Magistrate Judge:
COMES NOW, Woodrow A. Clark, the Movant, proceeding pro se,
respectfully
Report

and

U.S.C

§2255

files

his

objections

Recommendation,

to

the

recommending

Magistrate

to

deny

Judge's

Movant's

28

Motion without conducting an Evidentiary Hearing

or resolve factual disputes that is warranted in Movant's case.
Movant makes the following objections to wit:

OBJECTION NO. 1
The point of law was fundamental
clear at .the £ime of Movant's case.
Movant
(hereinafter

objects
"RMJ),

to

the

that

Report

"the

of

the

Government

Appendice B-5

and it was

Magistrate

correctly

Judge

explains,

Movant's counsel could not have reasonably known that this issue
would arise at trial and thus could not have filed motions in
limine to challenge it before trial. Movant's counsel objected
when

the

issue

objection.

arose,

and

Therefore,

deficiently,

the

District

Movant's

counsel

Court
did

and Movant was not prejudiced."

sustained
not

the

perform

See Doc.

171 at

5.
In contrast,

it

is well

established that trial

counsel's

ignorance of a point of law that is fundamental to their case
combined with their failure to perform basic research on that
point

is

a quintessential example of unreasonable performance

under Strickland. See Brewster v. Hetzel, 913 F.3d 1042, 1059
(11th Cir. 2019).
In Movant's

case,

the law on expert testimony dressed in

lay witness clothing was clear but counsel did not research the
law.

Therefore,

Movant's

counsel did perform deficiently,

and

Movant was prejudiced.
Consequently,

this

Honorable

Court

should

sustain

Movant's objection.

OBJECTION NO. 2
The Court is required to determine whether
testimony not. grounded in the Agent1 s own
experience meets the standard for admission as
expert testimony.

2

the

Movant objects to the "RMJ" that "the Government correctly
explains,

no

expert

instructions
Movant's

testified

at

Movant's

trial,

on expert testimony were unnecessary.

counsel did not perform deficiently,

and

Dury

Therefore,

and Movant was

not prejudiced." Doc 171 at 6.
To
testify

the

contrary,

to

opinions

non-expert
or

(or

lay)

witness

inferences, "which

are

(a)

may

only

rationally

based on the perception of the witness, and (b) helpful to clear
understanding

of

the

witness'

testimony

or the determination

of a fact.in issue, and (c) not based on scientific, technical,
or other specialized knowledge within the scope of Rule 702."
See United States v. Henderson, 409 F.3d 1293, 1300 (11th Cir.
2005)(quoting Fed. R. Evid.

701)).

Therefore, the trial court

was required to determine whether testimony not grounded in the
Agent's

own

experience

expert testimony.

meets

Williams v.

the

standard

for

admission

Mast Biosurgery USA,

Inc •

r

as
644

F.3d 1312, 1317 (11th Cir. 2011).
In

Henderson,

the

court

pointed

out

that

distinguishing

between lay and ‘ expert testimony is an important one; arriving
at

an

appropriate

conclusion

requires

that

trial

courts

be

vigilant in insuring that the reliability requirements set forth
in

Rule

702

proffering

an

not "'be

evaded

through the

simple expedient

expert in lay witness clothing. II

1

of

See Williams,

644 F.3d at 1317 (quoting Henderson, 409 F.3d at 1300 (quoting
Fed R. Evid. 701 advisory committee's note to the 2000 amendment)).

3

Here

in Movant's

case,

the trial

court did not determine

whether the Agent's testimony not grounded in the Agent's own
experience meets the standard for admission as expert testimony.
Indeed,

the Agent's testimony in Movant's case was based on a

"hypothesis",

and it thus crossed the line from lay to expert

testimony, and it must comply with the requirements of Rule 702.
See Lebron v.

Sec'y of the Fla. Dept, of Children & Families,

772 F.3d 1352, 1372 (11th Cir. 2014).
Consequently,
because

the

clothing

the

Movant's

Government

that

denied

objection

proffered
Movant

the

an

should

expert

right

to

in

be

sustained

lay

a fair

witness
trial

in

violation of the Fifth and Sixth Amendment.
Therefore, Movant's counsel was deficient and that deficient
performance prejudiced Movant's defense.

OBJECTION NO. 3
Movant objects to the "RMJ" finding that
Movant's counsel did not perform deficiently,
and that Movant was not prejudiced." Doc. 171
at 6.
To the contrary, Movant may show prejudice resulting from
appellate
claim.

counsel's

See

alleged

Strickland

v.

errors

in

Washington,

failing
466

to

D.S.

raise

the

668,

694

(1984)(stating that prejudice occurs when there is a "reasonable
probability that,

but for counsel's unprofessional errors, the

4

./

CERTIFICATE OF SERVICE
I, Woodrow..Andrew Clark

hereby certify that I have served a true and correct

copy of the following:

Which is deemed filed at the time it was delivered to prison authorities for forwardingto the
court, Houston v. Lack 101 L.Ed.2d 245 (19$Sj, upon the court and parties to litigation and or
' his/her attomey(s) of record, by placing same in a sealed, postage prepaid envelope addressed to:

•:

and deposited same in the United States Postal Mail at the United States
on this:

day of:

EDltf
r
(i

'kmnmkAw

/• '

7

}

<

<

Appendice B-6

United States Magistrate Judge's Final
Report and Recommendation and Order for
Service of Report and Recommendation of
United States Magistrate Judge filed
November 18, 2019

Appendice B-6

Case 1:15-cr-00104-SCJ-AJB Document 171 Filed 11/18/19 Page 1 of 9

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
WOODROW ANDREW CLARK,
BOP Reg. # 66836-019,
Movant,

MOTION TO VACATE
28 U.S.C. § 2255
CRIMINAL ACTION NO.
1:15-CR-104-SCJ-AJB-2

v.
UNITED STATES OF AMERICA,
Respondent.

CIVIL ACTION NO.
1:18-CV-4189-SCJ-AJB

UNITED STATES MAGISTRATE JUDGE’S
FINAL REPORT AND RECOMMENDATION
Movant, Woodrow Andrew Clark, filed a pro se motion under 28 U.S.C.
§ 2255 to vacate, set aside, or correct sentence by a person in federal custody.
[Doc. 163.]1 The Government filed a response in opposition, [Doc. 165], and
Movant filed a reply, [Doc. 169]. For the reasons discussed below, the undersigned
RECOMMENDS that the § 2255 motion be DENIED.
I.

28 U.S.C. § 2255 Standard

A motion to, vacate, set aside, or correct a sentence may be made “upon the
ground that the sentence was imposed in violation of the Constitution or laws of

i

Citations to the record in this Final Report and Recommendation refer
to case number l:15-cr-104-SCJ-AJB-2.
Appendice B-6

Case l:15-cr-00104-SCJ-AJB Document 171 Filed 11/18/19 Page 2 of 9

the United States, or that the court was without jurisdiction to impose such sentence,
or that the sentence was in excess of the maximum authorized by law, or is
otherwise subject to collateral attack ...28 U.S.C. § 2255(a). “[Collateral
review is not a substitute for a direct appeal ...

Lynn v. United States,

365 F.3d 1225, 1232 (11th Cir. 2004) (per curiam). Section 2255 relief “is reserved
for transgressions of constitutional rights and for that narrow compass of other
injury that could not have been raised in direct appeal and would, if condoned,
result in a complete miscarriage ofjustice.” Id. (quoting Richards v. United States,
837 F.2d 965, 966 (11th Cir. 1988)) (internal quotation marks omitted).
A § 2255 movant “has the burden of sustaining his contentions by a
preponderance of the evidence.” Tarver v. United States, 344 Fed. Appx. 581, 582
(11th Cir. Sept. 18, 2009) (per curiam) (quoting Wright v. United States,
624 F.2d 557,558 (5th Cir. 1980)2). The Court must conduct an evidentiary hearing
unless “the motion and the files and records of the case conclusively show that the
prisoner is entitled to no relief....” 28 U.S.C. § 2255(b). “[A] district court need
not hold an evidentiary hearing where the movant’s allegations are affirmatively

2
In Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir. 1981)
(en banc), the Eleventh Circuit adopted as binding precedent all decisions of the
former Fifth Circuit issued before October 1, 1981.
2

Case 1:15-cr-00104-SCJ-AJB Document 171 Filed 11/18/19 Page 3 of 9

contradicted by the record, or the claims are patently frivolous.” Bain v. United
States, 565 Fed. Appx. 827, 828 (11th Cir. May 12, 2014) (per curiam) (quoting
Aron v. United States, 291 F.3d 708,715 (11th Cir. 2002)) (internal quotation marks
omitted).
In the present case, the undersigned determines that an evidentiary hearing
is not needed because the § 2255 motion and record conclusively show that Movant
is entitled to no relief.
II.

Discussion

On June 28, 2016, a jury found Movant guilty of conspiracy to possess with
the intent to distribute heroin, in violation of 21 U.S.C. §§ 841(a)(1) & (b)(1)(A)
and 846. [See Docs. 8, 124.] On September 12, 2016, the District Court filed the
Judgment and Commitment, sentencing Movant to 156 months of imprisonment,
followed by five years of supervised release. [Doc. 135.] The United States Court
of Appeals for the Eleventh Circuit affirmed.

See United States v. Clark,

710 Fed. Appx. 418 (11th Cir. Oct. 12, 2017) (per curiam), cert, denied,
138 S. Ct. 2663 (2018). [Doc. 159.]
Movant timely filed his § 2255 motion on August 31, 2018. [Doc. 163 at 1;
see also Doc. 165 at 8 & n.2.] Movant claims that (1) trial counsel provided
ineffective assistance by failing to (a) file motions in limine (ground one),
3

Case l:15-cr-00104-SCJ-AJB Document 171 Filed 11/18/19 Page 4 of 9

(b) request jury instructions on expert testimony (ground two), and (c) challenge
evidence of Movant’s prior convictions (ground three), and (2) Movant’s cell
phone records were inadmissible under Carpenter v. United States, 138 S. Ct. 2206
(2018) (ground four). [Doc. 163 at 4-9.]
A. Grounds One, Two, and Three
“[F]ailure to raise an ineffective-assistance-of-counsel claim on direct appeal
does not bar the claim from being brought in a later, appropriate proceeding under
§ 2255.” Massaro v. United States, 538 U.S. 500, 509 (2003). In order to
demonstrate ineffective assistance of counsel, a convicted defendant must show
that (1) “counsel’s performance was deficient,” and (2) “the deficient performance
prejudiced the defense.” Strickland v. Washington, 466 U.S. 668, 687 (1984). As
to the first prong of Strickland, “a court must indulge a strong presumption that
counsel’s conduct falls within the wide range of reasonable professional assistance;
that is, the defendant must overcome the presumption that, under the circumstances,
the challenged action might be considered sound trial strategy.” Id. at 689 (internal
quotation marks omitted). As to the second prong, “[t]he defendant must show that
there is a reasonable probability that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different. A reasonable probability is a
probability sufficient to undermine confidence in the outcome.” Id. at 694. A court
4

Case l:15-cr-00104-SCJ-AJB Document 171 Filed 11/18/19 Page 5 of 9

may consider either prong first and need not address the other “if the defendant
makes an insufficient showing on one.” Id. at 697.
In ground one, Movant claims that his counsel failed to file motions in limine
to challenge the testimony of a special agent because he was not qualified as an
expert.

[Doc. 163 at 4.]

However, Movant’s counsel objected when the

Government’s counsel appeared to ask the agent for an expert opinion at trial.
[Doc. 165 at 4-5.] The District Court sustained the objection but allowed the agent
to testify regarding his personal observations and conclusions. [Id. at 5-6.] As the
Government correctly explains, Movant’s counsel could not have reasonably
known that this issue would arise at trial and thus could not have filed motions in
limine to challenge it before trial. [Id. at 11.] SeeHubbardv. Haley, 317 F.3d 1245,
1259 (11th Cir. 2003) (“[D]efense counsel ... need not urge every conceivable
objection the law would provide.”). Movant’s counsel objected when the issue
arose, and the District Court sustained the objection. Therefore, Movant’s counsel
did not perform deficiently, and Movant was not prejudiced.
In ground two, Movant claims that his counsel failed to request jury
instructions on expert testimony. [Doc. 163 at 5.] However, as the Government
correctly explains, no expert testified at Movant’s trial, and jury instructions on

5

Case l:15-cr-00104-SCJ-AJB Document 171 Filed 11/18/19 Page 6 of 9

expert testimony were unnecessary. [Doc. 165 at 13.] Therefore, Movant’s counsel
did not perform deficiently, and Movant was not prejudiced.
In ground three, Movant claims that his counsel failed to challenge evidence
of Movant’s prior convictions. [Doc. 163 at 7.] However, as the Government
correctly explains, Movant’s counsel filed a motion in limine seeking to exclude
evidence of Movant’s prior convictions. [Doc. 165 at 14-15.] The District Court
denied the motion in limine. [Doc. 112.] Despite that outcome, Movant’s counsel
did not perform deficiently, and Movant was not prejudiced. See Ward v. Hall,
592 F.3d 1133, 1164 (11th Cir. 2010) (“[T]he fact that a particular defense was
unsuccessful does not prove ineffective assistance of counsel.”).
Accordingly, Movant should be denied § 2255 relief as to grounds one, two,
and three.
B. Ground Four
In ground four, Movant claims that his cell phone records were inadmissible
under Carpenter v. United States. [Doc. 163 at 8.] Carpenter holds that a warrant
is required to obtain “cell site location information.” Carpenter, 138 S. Ct. at 2221.
However, as the Government correctly explains, Movant’s “cell site location
information” was not obtained. [Doc. 165 at 17-18.] Instead, the Government
obtained a search warrant for two cell phones found in the vehicle that Movant was
6

Case l:15-cr-00104-SCJ-AJB Document 171 Filed 11/18/19 Page 7 of 9

driving when fleeing from law enforcement. [Id.] Because Carpenter does not
apply to the present case, Movant should be denied § 2255 relief as to ground four.
III.

Certificate of Appealability (COA)

Pursuant to Rule 11(a) of the Rules Governing Section 2255 Proceedings,
“[t]he district court must issue or deny a certificate of appealability when it enters
a final order adverse to the applicant. ... If the court issues a certificate, the court
must state the specific issue or issues that satisfy the showing required by
28 U.S.C. § 2253(c)(2).”

Section 2253(c)(2) states that a certificate of

appealability may issue “only if the applicant has made a substantial showing of
the denial of a constitutional right.” A substantial showing of the denial of a
constitutional right “includes showing that reasonable jurists could debate whether
(or, for that matter, agree that) the [motion] should have been resolved in a different
manner or that the issues presented were adequate to deserve encouragement to
proceed further.” Slack v. McDaniel, 529 U.S. 473,484 (2000) (internal quotation
marks omitted).
When the district court denies a [motion to vacate, set aside, or
correct sentence] on procedural grounds without reaching the
prisoner’s underlying constitutional claim ... a certificate of
appealability should issue only when the prisoner shows both that
jurists of reason would, find it debatable whether the [motion] states a
valid claim of the denial of a constitutional right and that jurists of
7

Case l:15-cr-00104-SCJ-AJB Document 171 Filed 11/18/19 Page 8 of 9

reason would find it debatable whether the district court was correct
in its procedural ruling.
Jimenez v. Quarterman, 555 U.S. 113, 118 n.3 (2009) (citing Slack,
529 U.S. at 484) (internal quotation marks omitted).
A COA should be denied because the resolution of the issues presented is
not debatable. If the District Court adopts this recommendation and denies a COA,
Movant is advised that he “may not appeal the denial but may seek a certificate
from the court of appeals under Federal Rule of Appellate Procedure 22.”
Rule 11(a), Rules Governing Section 2255 Proceedings for the United States
District Courts.
IV.

Conclusion

For the reasons stated above,
IT IS RECOMMENDED that the § 2255 motion, [Doc. 163], be DENIED,
a COA be DENIED, and civil action number l:18-cv-4189-SCJ-AJB be
DISMISSED.
The Clerk is DIRECTED to terminate the referral of the § 2255 motion to
the undersigned.

8

Case 1:15-cr-00104-SCJ-AJB Document 171 Filed 11/18/19 Page 9 of 9

IT IS SO RECOMMENDED AND DIRECTED, this 18th day of
November, 2019.

ALAN J. BAVERMAN
UNITED STATES MAGISTRATE JUDGE

9

Case l:15-cr-00104-SCJ-AJB Document 172 Filed 11/18/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
WOODROW ANDREW CLARK,
BOP Reg. # 66836-019,
Movant,

MOTION TO VACATE
28 U.S.C. § 2255
CRIMINAL ACTION NO.
l:15-CR-104-SCJ-AJB-2

v.
UNITED STATES OF AMERICA,
Respondent.

CIVIL ACTION NO.
1:18-CV-4189- SC J-AJB

ORDER FOR SERVICE OF REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
The Report and Recommendation of the United States Magistrate Judge,
made in accordance with 28 U.S.C. § 636(b)(1) and this Court’s Local Rule 72,
has been filed. The Clerk is DIRECTED to serve a copy, together with a copy of
this Order, upon counsel for the parties and upon any unrepresented parties.
Within fourteen (14) days of service of this Order, a party may file written
objections,

if

any.

28 U.S.C. § 636(b)(1)(C).

to

the

Report

and

Recommendation.

See

Should objections be filed, they shall specify with

particularity the alleged error or errors made (including reference by page number
to the transcript if applicable) and shall be served upon the opposing party. The
party filing objections will be responsible for obtaining and filing the transcript of
any evidentiary hearing for review by the District Court. If no objections are filed,

Case l:15-cr-00104-SCJ-AJB Document 172 Filed 11/18/19 Page 2 of 2

the Report and Recommendation may be adopted as the opinion and order of the
District Court, and on appeal, the Court of Appeals will deem waived any
challenge to factual and legal findings to which there was no objection, subject to
interests-of-justice plain error review. 11th Cir. R. 3 -1.
The Clerk is DIRECTED to submit the Report and Recommendation with
objections, if any, to the District Court after expiration of the above time period.
IT IS SO ORDERED, this 18th day ofNovember, 2019.

ALAN J. BAVERMAN
UNITED STATES MAGISTRATE JUDGE

2

4

Appendice B-7

Reply to United States Response in
Opposition of 28 U.S.C. §2255 Motion
filed December 26, 2018

■i

Appendice B-7

V

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

WOODROW ANDREW CLARK,
Movant,

v.

Cr. No.:1:15-CR-104
/

UNITED STATES OF AMERICA,
Respondent.

REPLY TO UNITED STATES' RESPONSE IN OPPOSITION
TO MOVANT'S 28 U.S.C. §2255 MOTION TO VACATE,
SET ASIDE OR CORRECT SENTENCE
TO THE HONOURABLE JUDGE STEVE C. JONES U.S. DISTRICT COURT
JUDGE*
COMES

NOW,Woodrow

respectfully

files

A.

Clark,

the

Movant,

pro

this reply to the United States'

se,

and

response

in opposition to Movant's 2P U.S.C. §2255 motion, pursuant to
Rule

5

governing §2255 proceedings.

it's response on October 26,
a

copy

Movant
an

of

its

filed

extension

a

The Government has filed

2018. But the Government served

response to Movant on December 4,
Motion of Inquiry,
of

time-30

days

2018.

and therein requested

to

file

a

Reply

to

The
cr.
the

Government's Response. This Reply Follows.
Movant stands firmly on all grounds raised in his initial
§2255 motion and memorandum brief. This reply will address all
points raised in the Government's Response.
Appendice B-7

/
/
/
/

I
A Showing Of Prejudice Is Not Required Because
Circumstances Surrounding Counsel's Representation
And The Government's Interference In Failing To
Disclose-Give Rise To The Presumption Of Prejudice.
The Government contends that "Clark carries a heavy burden
on his ineffective claims, with habeas relief available in only
the rarest- of cases." Doc. 165 at 9. To support its position,
the

Government

claims

are

argues

subject

"[i]neffective
to

the

assistance

two-part

test

of

counsel

enunciated

in

Strickland v. Washington, 466 U.S. 668 (1984)." Id.
In contrast, in United States v. Cronic, 466 U.S. 648, 104
S. Ct. 2039 , 80 L.Ed.2d 657(1984), the Supreme Court held that
where "counsel entirely fails to subject the prosecution's case
to

meaningful

testing,

the

adversary

process

itself

[is]

presumptively unreliable, and a defendant, therefore, need not
demonstrate the impact of the failure in order to succeed on
his claim.

The Supreme Court has described Cronic as a narrow

exception to Strickland's holding that a defendant who asserts
ineffective
that his

assistance

of

counsel must demonstrate not only

attorney's performance was deficient,

the deficiency prejudiced the defense.
U.S,

App.

LEXIS

Florida v. Nixon,
2d 565
18

7109

(5th

Cir.

I II

but also that

Barbee-', v. Davis, 2018

2018) (per

curiam)

(quoting

543 U.S. 175, 190, 125 S.Ct 551, 160 L. Ed.

(2004)); see also Gaedtke v. Sec'y, 369 Fed. Appx.

(11th Cir.

2d 897, 900

12,

2010)(per curiam) (quoting Chadwick v. Green, F.

(11th Cir. 1984)

(quoting Cronic, 466 U.S. at 658-

659, 104 S.Ct at 2046-47)).

2

/

/
/

Movant argues a showing of prejudice is not required, his
case does

"justify a presumption of prejudice"

circumstances

leading

to

counsel's

because

ineffectiveness

"the

are

so

egregious that the [Movant] was in effect denied any meaningful
assistance at all." Chadwick, 740 F.2d at 901. On the one hand
,

" counsel's performance was so impeded by the circumstances

that

it

is

unlikely

that

any

lawyer

could

have

provided

effective assistance,

given the situation." Chadwick,

2d

Fed.

at

901.

Indeed,

Witnesses provides:

R.

Crim.

P.

740 F.

16 (a) (1) {G)-Expert

"At the defendant's request the government

must give to the defendant a written summary of any testimony
that the government intends

to use under Rules 7 02,

703,

or

705 of the Federal Rules of Evidence during its case-in-cheif
at trial." Rule 16(a)(1)(G).

Clearly the record shows counsel

did not make such a request.
On

the

other

confirmed he was
testified

that

hand,
an

he

Agent

Engle's

" Expert Witness."

was

a

Special

Agent

testimony

at

trial

In fact, Agent Engle
with

U.S.

Dept,

of

Homeland Security-assigned to Homeland Security Investigation.
Specifically,

assigned to the organized crime and drug task

force and task with investigating criminal organization s as
they smuggle narcotics into Atlanta. Assigned to narcotics unit
since 2008. Prior to 2008, he worked for the Cobb County P.D.,
for ten and a half years - while employed with the Cobb County
P.D.,

he was

assigned to the Marietta Cobb Smyrna Narcotics

Task Force- That was a six-year tenture.

And during that six

years he was assigned to the DEA as a DEA Task Force Officer
3

in Atlanta. See Trial Trans, at 55-56.
Certainly,

with

this

experience,

Agent

Engle

easily

qualified to be an "Expert Witness", 702; as opposed to being
a lay witness under 701.
Fed.
702,

Appx.

453,

456

experienced

See United States v. Blackburn,

(11th Cir.

government

398

2010) (percuriam) ("Under Rule

agents

may

provide

testimony

regarding general techniques used by drug traffickers, or the
meaning

of

certain

jargon

used

in

the

drug-

trafficking

business.")( citing United States v. Chastain, 198 F.3d 1338,
1348-49
by

(11th Cir.

permitting

experience
training

a

in
in

1999)( court did not abuse its discretion
U.S.

customs

investigating
the

area

agent,

drug

of

drug

who

had

ten

years'

smuggling and had received
smuggling

with

the

use

of

airplanes, to provide expert testimony about general techniques
used by drug traffickers who use airplanes to smuggle drugs.))
"Nevertheless, such opinion testimony is improper where a case
agent goes beyond providing information about methods unique
to

the

drug

defendant's
Blackburn,
Emmanuel,

business

summarizes

and

his

beliefs

conduct based upon his knowledge of the
398

Fed.

Appx.

565 F.3d 1324,

at

460

1335

about
case.

f II

(quoting United States v.

(11th Cir;.), Cert, denied,

558

U.S. 1099, 130 S. Ct. 1032, 175 L. Ed 2d 632 (2009)).
But the prosecution here, listed and proffered Agent Engle
as a lay witness-that was error. See Blackburn, 398 Fed. Appx.
at 466. Thus, affected the defense ability to present a defense
and it is clear from the record of Movant's case, the defense
strategy was determined by the prosecution's interference in
4

its failure to disclose. See United States v. Auten, 632 F. 2d
478

(5th Cir.

Unit A,

1980)(internal quotations and citations

omitted));1 see also Hernandez v. Terrones, 397 Fed, Appx.

954,

970-71 (5th Cir. 2010). Therefore, violated Movant's substantial
rights to fair trial. Movant asserts this Court is now presented
with

a

case-Movant's

case,

that

calls

into

question

what

approach should be applied where counsel's deficiency was due to
government interference or

other external

constraints

or

self

imposed—thus created a fundamental breakdown of the adversarial
process such that prejudice is presumed under Cronic; or whether
Movant's case is subject to prejudice analysis under Washington,
supra. Movant urges this Court should apply Cronic- prejudice is
presumed.

See United States v. Marshall, 173 F.3 1312, 1315(11th

Cir.1999).
II.
The Prosecution Proffered An Expert-Agent Engle
In Lay Witness Clothing That Evade The Reliability
Requirement In Fed R. Evid. 702.
The Government contends "Clark's Counsel Was Not Ineffective
a ,1 I
■■CJB'S.'Z
For Failing To File Motions in Limine With Respect to Agent
Engle's Testimony." Doc.

165 at 10. To Support its contention,

the Government argues "[a]s a practical matter, Clark's counsel
did not know the detailed specifics of Agent Engle's testimony
before Agent Engle took the witness stand.
not

know

the

detailed

specifics

of

Agent

before Agent Engle took the witness stand.

The government did
Engle's

testimony

The government did

1The Eleventh Circuit has held the decision of the former Fifth
Circuit renders prior to September 30, 1981, are binding on this
Court. See Bonner v. City of Prichard, 661 F. 2d 1206, 1209
(11th Cir. 1981)(en banc).
5

not dislose the opinion testimony of Agent Engle prior to trial
because it was not intended as expert testimony." Id.
In contrast,
circumstances

the "Federal

in

which

testimony on a matter
may testify at trial
specialized
understand

the

district

court

may

permit

if his
will

evidence

or

scientific,
assist
to

technical,

or other

trier

fact

the

determine

a

of

fact

in

Gutierrez-Farias, 294 F.3d 657, 662

2002)(quoting Fed.

expert

in dispute at trial. An expert witness

knowledge

United States v.

the

a

Rules of Evidence set forth the

R. Evid. 702.))

issue.

based upon sufficient facts or data,

I II

(5th Cir.

An expert may testify

form of an opinion or otherwise,

to

I II

in

if

(1)

the testimony is

(2)

the testimony is the

product of reliable principles and methods, and (3) the witness
has

applied the

of the case.

I II

principles and methods
Id.

reliably to the facts

Notably,[a]n expert in a criminal case may

not, however, offer 1 an opinion or inference as to whether the
defendant did or did not have the mental

state or condition

constituting an element of the crime charged I

II

294 F.

3d at 662

Gutierrez-Farias,

(quoting Fed. R. Evid. 704(b)).

are matters for the trier of fact alone.
In Movant's case,

I II

I It

Such issues

Id.

the record shows that this Court relied

on United States v. Blackburn, 398 F. App'x 453 to agreed with
the Government that if Agent Engle's testimony is "based on his,
what he was thinking at the time based on what he saw at that
time" Triat Trans at 110-111.
Id. The Government,
back" on Agent

The Court then agreed "Exactly."

then asked the Court for permission to "go

Engle's

testimony.
6

On

direct examination,

the

Government questioned Agent Engle about his earlier testimony in
relation to his surveillance at the Camden St. Clair Apartment
complex.

T.T. at 115:

Q. Based on those observations how did that
affect

your

level

of

suspicion

about

the

orange truck at that time?
Trial Trans, at 117.
Over
that:

counsel

I think

"objection

it is

to

relevant,

relevance",
Mr.

Samuel.

this

Court

ruled

I will allow that

question." Trial Trans at 117.
0" Agent

Engle

then

testified:

"

I

believe that

the orange

truck had delivered money to the apartment and was

going to

obtain heroin from the.apartment. " Trial. Trans, at 118.vv
Movant argues,

Agent Engles's testimony constitute

Expert

. Testimony within the meaning of Fed. R. Evid. 702.'Here, Agent
Engle was not present at any meetings between Movant and his co­
defendants—had no personal knowledge that the orange truck had
delivered money to
defendants

was

Therefore,

this

counsel's

the apartment and that Movant and his co­

going
Court

objection

to

to

obtain

abused
the

heroin

its

from

discretion

prosecution's

the
in

question

apartment^
overruling
and

Agent

Engle's answer was inadmissible. See United States v. Marshall,
173 F. 3d 1312,

1315 (11th Cir. 1999); See also United States v.

Dulcio 441 F. 3d 1269, 1275

(11th Cir. 2006)(concluding that it

is

testimony

error

to

specialized

admit

opinion

knowledge.) (quoting

Notes (2000) ("Rule

Fed.

of

lay witnesses

R.

Evid

701

Adv.

7 01 has been amended to eliminate the

7

based
Comm
risk

that

the

reliability

requirements

set

forth

in Rule.702 [for

expert witnesses] will be evaded through the simple expedient of
proffering an expert in lay witness's clothing.")),/
But

that's

what

the

prosecution

did

here-

proffered

an

expert witness-Agent Engle in lay witness's clothing. Thus his
testimony was inadmissible and this error denied Movant a fair
trial.

Therefore,

the

failure

of

Counsel

to

file

pretrial

motions in limine to exclude Agent Engle's expert testimony was
unreasonable, where it is well established that "[w]hen experts
testify,

the

example,

objection may

party

can

object
be

for

made to

a number of reasons.
the

qualification

of

For
the

expert under 702, Daubert v. Merrell Dow Pharmaceuticals, Inc.,
509 U.S. 579, 589, 113 S.Ct. 2786, 125 L.Ed. 2d 469 (1993), the
reliability of the testimony presented, id. at 592-93, or to the
experience
United

on

States

2006)(quoting
(11th- Cir.
"solely

or

which
v.

the

Dulcio,

United

expert
441

States

v.

relies

F.

for

f.3d

Frazier,

her

opinion,

1269,

1273

(11th Cir.

387

F.3d

1244,

2004) (en banc) (holding that when a witness
primarily

on

experience,

see

then

the

witness

1261

relies
must

explain how that experience leads to the conclusion reached, why
that experienced is a sufficient basis for the opinion, and how
that experience is reliably applied to the facts"")).
There I® A Reasonable Possibility That Agent
Engle's Improperly Admitted Testimony Contributed
To.,,! the Conviction.
The Government contends
Not only was counsel's conduct well within the wide
range of reasonable competence, his decision to
object to the scope of Agent Engle's testimony was,
in fact,
successful. As the Eleventh Circuit
explained,
' [t] he
district
court
specifically
prevented Agent Engle from testifying about Clark's
~ r._
actio:.?.s
8

actions based on any specialized knowledge; the
government elicited testimony only as to Agent
Engle's perception based on his observation of
the
day
of
the
heroin
on
actions
Clark1s
transaction.1 As such, Agent Engle did not testify
what
regarding
examination
direct
on
is
or make
any general
1 countersurveillance'
regarding conspirators in a drug
observations
ring.' The Court's decision to limit Agent Engle's
testimony as to countersurveillance resulted solely
from defense counsel's effective performance.
Doc.

165

at

12

(quoting United States v.

Clark,

710

Fed.

Appx. 418 (11th Cir. 2017) (per-curiam)) .
In contrast,

on direct appeal,

Counsel "argue[d]

that the

district court erred by permitting a law-enforcement agent to
based on Cla-rk-'-s—behavior, the

testify as a lay witness that,
agent

believed

Clark—was—acting,_as

alookout during a drug

vtrans^actign.." Clark, 710 Fed. Appx. at 421.
But the

Eleventh Circuit ruled that "(t]he district court

did not clearly err in permitting the agent to testify as a lay
witness that, based on his observations, he believed that Clark
was acting as a lookout during the drug transaction. Id. at 422.
Most notably,

Counsel did not argue on direct appeal,

the

district court erred by overruling his objection to relevance
of proescution's question that "based on those observation how
did that affect your level of suspicion about the orange truck
at that time?"

Tr. Trans, at 117, and that the district court

also erred by allowing Agent Engle's expert testimony that he
"believed that the orange truck had delivered money to the the
apartment and was
Tr.

Trans,

at 118.

going to obtain heroin from the apartment.
As such,

the Eleventh Circuit decision in

Clark is distinguishable from the issue Movant raised in §2255.

9

"Clark fails not only to

The Government also argues that
show

that

his

attorney's

performance

was

but

deficient,

he

failed to show that he was prejudiced because the admission of
Agent Engle's testimony did not affect the outcome of his trial.
The evidence against Clark at trial was overwhelming, "Doc. 165
at 12.

)

"[a]n error affects substantial rights if

To the contrary,
is

there

reasonable

evidence

contributed
489 F.

Sumlin,

Williams,

to

3d 683,

957 F.

the
688

improperly admitted

conviction."

(5th Cir.

United

2007);

States

v.

United States v.

2d 1238, 1242 (5th Cir. 1992) (citing Schneble

405

Florida,

v.

probability that the

U.S.

427,

92

S.

Ct.

1056,

13

L.

Ed.

2d

340(1972)) .
during the trial,

-"S^w^In Sumlin,

the court allowed an officer

"Sergeant Kingsley, the arresting officer , who testified as to
the

circumstances

of

the

and

stop

arrest

and

his

drug

interdiction efforts generally. Additionally, he testified that
he

suspected- that

Sumlin was

transporting narcotics."

Id.

at

685.^ The Fifth Circuit held that the admission of the testimony
erroneous because

the evidence was insufficient to prove that

<•

Sumlin had transported narcotics, so the testimony was "relevant
only

to

the

defendant's

character

and

should

not

have

been

admitted.') Id. at 691.
|^In conducting the harmless error inquiry, the Fifth Circuit
concluded

that

"the

district

court's

error

in

admitting

Kingsley's testimony affected Sumlin's substantial rights , there
is

a

reasonable

possibility

that

10

this

improperly

admitted

evidence contributed to the conviction./" Id.
reiterated

- I «»

that

[t]he

danger

of

at 691. The court

unfair

admission of drug-related evidence...[is]

prejudice

greater,

from

'because

a

is the kind of crime for which the jury may feel

drug offense

the defendant should be punished, regardless of his guilt as r
to the charged offense." Id. at 691
3d at

523) ) ;

see also United States v.

prejudicial when,
party

as...narcotics."")
43-44);

United

States

v.

3d

is...particularly

issue,

public

charged

highly
(citing

56 F.

the proffered evidence connects a

as here,

a

with

Blacksbone,

1995) ("Evidence

Cir.

1146(9th

1143,

(quoting Ridlehuber, 11 F.

Weinstein's Evidence §4 03
66

Vizcarra-Martinez,

such

[3] ,

F.3d

pp.

1006,

1017(9th Cir. 1995)("a misdemeanor conviction for possession one
marijuana cigarette nine years before the crime was committed
could

have

a

significant

prejudicial

effect

on

the

jury's

decision'")).
Therefore, regardless, Movant's case is an actual drug case
and

Sumlin

is

a

§922(g)

case,

unfair - prejudice

from'

the

admission of the drug-related evidence applies with equal force.
In

fact,

Movant's

case was a close one like Sumlin's whereby

Movant was found not guilty as to Count Two, and the evidence
was not overwhelming to prove that Movant "had delivered money
to

the

apartment

apartment",

so

and

Agent

was

going

Engle's

to

obtain

testimony

was

heroin

from

the

relevant only to

Movant's character.^
J Accoedingly,

Movant's

counsel

rendered

ineffective

assistance of counsel on this issue—thus Movant is entitled to
an Evidentiary Hearing.
11

III.
A Defendant Is Entitled To have The Court Instruct
The Jury . On The Theory Of Defense When There Is A
Basis In The Evidence And Legal Support.
The

Government

"Clark's

contends,

Counsel

Was

Not

Ineffective For Failing To Request A Special Jury Instruction."
Doc.

165

at

13.

argues "[h]ere,

To

support its contention,

the Government

it is likely that the Court would have denied

any request for an expert testimony jury instruction because,
with no expert witness

at trial,

there was

no basis in the

record for the instruction. Thus, counsel's failure to request
the instruction was not ineffective nor did it cause prejudice
to Clark's case." Doc. 165 at 14.
In contrast, Movant asserts Bias mentioned above, the record
shows Agent Engle could easily be qualified as an expert. T.T.
at

55-56.

Also,

confirming that status

as

an expert,

Agent

Engle elicited expert testimony that based on his observation,
he "believe that the orange truck had delivered money to the
-apartment and was going to obtain heroin from the apartment."
T.T. at 118.
^In United States v. Marshall^/ 173 F.
Cir.

1999),

3d 1312, 1315 (11th

the Eleventh Circuit found that such testimony is

in fact "expert testimony." Id.
Corresponding, it is well established that a defendant like
Movant is entitled to have the court instruct the jury on the
theory of the defense, as long as it has basis in the evidence
and has
1184,

legal

1195

support.

Christopher v. Cutter Labs,

53 F.

3d

(11th Cir. 1995)(quoting United States v. Hedges ,

12

912 F.

2d 1397, 1405-06

(11th Cir. 1990)(accord United States

v. Orr, 825 F. 2d 1537, 1542
4L to properly charge

the

(11th Cir. 1987)). Thus, failing

jury on Movant's

defense constitutes

reversible error. Id.
Thus,
^special

Counsel
jury

was

ineffective

instruction

based

for
on

failing
the

to request

"expert

a

witness"

testimony, elicited from Agent Engle, that caused prejudice to
Movant's case.
^Accordingly,

Movant is entitled to an Evidentiary Hearing

on this issue.
IV
Movant's Two Prior Convictions
Before The Conspiracy Ended.

Were

Not

Final

The Government contends "Clark's Counsel Was Not Ineffective
For Failing To Object to Admission of Prior Convictions." Doc.
165

at

14.

To

Support

its contention,

the Government argues

"Clark's prior convictions were properly admitted trial." Doc.
165 at 16.
To

the contrary,

Evidence 404(b)

it is well established "Federal Rule of

forbids the admission of evidence of 'a crime,

wrong ,or other act... to prove
to

show

that

a

a person's character in order

particular

occasion

the

person

acted

in

accordance with the character." United States v. Lochart, 2018
U.S. App.

LEXIS 11770

(11th Cir.

2018) (quoting Fed.

R. Evid.

404(b)). Such evidence may be admitted for other purposes, such
as proof of intent and absence of mistake. But to be admissible,
Rule

404

(b)

evidence must

(1)

than the defendant's character,

be relevant to an issue other
(2) sufficiently proven to allow

13

a jury to find that the defendant committed the extrinsic act,
and

(3)

possess

probative

value

that

is

not

substantially

outweighed by it undue prejudice under Fed. R. Evid. 403. United
States v. Barron-Soto, 820 F. 3d 409, 417 (11th Cir. 2016). But
under Rule 403, the District Court may exclude relevant evidence
if its probative value is "substantially outweighed" by a danger
of unfair prejudice,

confusing the

issues,

or misleading

the

j ury. Id.
Here, Movant argues those prior convictions that were used
by

the

Government

as

404(b)

evidence

were not

"sufficiently

proven", because at the time of the instant Federal arrest, his
plea to those prior offenses in the State of Florida had not yet
been finalized by the Florida State Courts and sentences

for

those crimes had not yet been imposed and were appealable—thus
were not final convictions. See Exhibit "A" (attached).
Clearly,

Movant's

two

prior

convictions

were

not

final

before the conspiracy ended on March 9, 2015.
Accordingly,

Counsel was ineffective for failing to object

to the admission of prior convictions.
V.
Movant Advances Claims That Raises Serious Enough
Questions As To The Effectiveness Of His Trial
Counsel To Warrant An Evidentiary Hearing.
The Government contends "[t]he existing record in this case
establishes

conclusively

requested relief.
Accordingly,

that

No further

Clark

is

not

entitled

to

the

factual development is required.

no evidentiary hearing is required to dispose of

his motion." 165 at 18.

14

To

the

retained

"[w]here...

contrary,

counsel,

in

violation it must be
counsel

was

official
aware

so

order

it

establish

a

represented by
Sixth

Amendment

shown that the incompetency of retained

obvious

connected with

of

to

defendant is

that

reasonably

attentive

government

criminal proceeding should have

and could have taken corrective action."
588 F. 2d 519, 521

States v. Guerra,

been

United

(5th Cir. 1979) (internal

citation omitted) ) .
Movant
obvious

argues,

the

incompetency

of

his

counsel

was

so

that the prosecution should have noticed it and take

remedial action. For example, Counsel should have filed a motion
in limine with respect to Agent Engle's investigation regarding
his surveillance at the Camden St. Clair Complex, including any
and all 302" reports submitted by Agent Engle—thus would have
revealed whether Agent Engle's observations and suspicions could
be considered "expert witness" or "lay witness" testimony.
Importantly,
reports

the

submitted

surveillance

on

by
March

Governments
Agent
9,

have

Engle-in

2015,

that

documents
his

302 ' s

and

investigation

clearly

calls

and

for

an

Evidetiary Hearing and Discovery..
Equally appalling,
the

government

to

"Counsel negotiated a stipulation with

minimize

the

evidence

of

Clark's

prior

convictions at trial." Doc. 165 at 16. Whereas, indeed Counsel
had knowledge

that Movant's State of Florida convictions were

not final.

2 Bonner, supra.

15

In addition,
Agent

Engle's

had counsel

filed a motion in limine as to

investigation

regarding

his

surveillance,

a

hearing would have revealed Agent Engle's opinion testimony is
expert

testimony,

thus

would

have

required

a

special

jury

instruction as to "expert testimony." See Doc. 165 at 11.
Movant argues, those are just three instances that shown the
incompetency
reasonably

of

retained

attentive

counsel-thus

prosecution

was

here,

criminal proceeding was aware of, .

so

obvious

connected

that a

with

the

but did not take corrective

action.
Consequently, Movant's claims are serious enough questions
as

to

the

effectiveness

of

his

trial Counsel

to warrant

an

Evidentiary Hearing.
CONCLUSION
For

the

reasons

stated

above,

the

Movant

respectfully

requests that this Court order the Government to release Agent
Engle's 302's report and other investigation documents submitted
by Agent Engre to'the Government, for Discovery in aid of Movant
developing
grant

an

additional
Evidentuiary

facts

in

Hearing,

support
to

of

resolve

his

claims.

all disputes

Thus,
that

exists in the Movant's case.
WHEREFORE,
that Movant

is

Movant pray this
entitled

to

Honorable Court make findings

relief

Hearing on all issues raised.

16

and

grant

an

Evidentiary

Respectfully

Submitted

on

this

2 U . day of December,

2018.

Woodrow
A.
Clark
#66836-091
F.Cil Jesup
2680 US. HWY 301 South
Jesup, Ga. 31599

17

I
j
3

CERTIFICATE OF SERVICE

•I

I

HEREBY

foregoing

CERTIFY

that

instrument has

a

been

true

and

mailed with

correct

copy

first class

of

the

postage

.(

affixed thereto on this JL b

|

delivering a copy of the same to the FCI Jesup Mail Room Staff

:i
1

for mailing through the internal legal mail system address to:

=1

day of

Os'Qj-nlhcz/2.

201^, by hand

;!

;
!

f
!

'i
;

I
!
:

i

i

:

i

Executed

I

penalty of perjury.

!
.?

j

!

!

on

this ZL day

of

TZ)£C,('KnhtrjZ.

,

201 i,

under

'\

Appendice B-8

United States Response to Movant's Motion
under 28 U.S.C. §2255 filed ©ctober 26,
2018

Appendice B-8

//

j

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 1 of 21
* '

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
Woodrow Andrew clark,
Criminal Action No.

v.
United States of America,

L15-CR-104

Respondent
United States' Response to Movant's Motion Under 28 U.S.C. fi 2255
The United States of America, by Byung J. Pak, United States Attorney, and
Angela Adams, Assistant United States Attorney for the Northern District of
Georgia, files this Response in Opposition to Woodrow Andrew Clark's Motion to
Vacate pursuant to Title 28, United States Code, Section 2255. For the reasons
stated below, Clark's motion should be denied.
Introduction
Clark's claims for ineffective assistance of counsel falter on both the
performance and prejudice prongs of Strickland.

As an initial matter, Clark's

counsel was not ineffective. His counsel represented him ably in the pretrial stage
and at trial, performing well within the wide-range of reasonable competence
demanded of counsel. Nor was Clark prejudiced by any alleged defaults in
counsel's performance. Even the Eleventh Circuit has concluded that significant
evidence was presented against Clark at trial, which established that he conspired
to possess heroin with the intent to distribute. The existing record and controlling

1
Appendice B-8

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 2 of 21

law are sufficient to reject all of the claims raised in the instant petition. The Court
should therefore deny Clark's habeas motion without an evidentiary hearing.
V

Factual and Procedural Background
A. Indictment
On March 24, 2015, a federal grand jury sitting in the Northern District of
Georgia returned a two-count indictment against Clark and his codefendant,
Robert Elie, charging them with: (1) conspiring to possess heroin with the intent
to distribute, in violation of 21 U.S.C. §§ 841 and 846 (count one); and (2)
possessing heroin with the intent to distribute, in violation of 21 U.S.C. § 841 (count
two). (Doc. 8). Elie pleaded guilty on January 19,2016. Clark proceeded to a jury
trial on June 27,2016.1
B. Offense Conduct and Trial Evidence
At trial, the government presented testimony and evidence establishing that
federal law enforcement received information from a confidential source that a
drug transaction was going to occur on March 9, 2015, at unit number 9101 in an
apartment complex in DeKalb County, Georgia. (Doc. 149-29, 35,161). Based on
that information, eight law enforcement officers set up surveillance at the
apartment complex where they believed a supplier would bring heroin that a male
would later purchase. (Id. at 41,51-52).
1 On May 17, 2016, a federal grand jury returned a superseding indictment
against Clark, charging him with the same counts one and two, and adding count
three, alleging that Clark assisted Elie with avoiding arrest, in violation of 18
U.S.C. § 3. (Doc. 96). The United States ultimately dismissed the superseding
indictment and proceeded to trial on the original indictment. (Doc. 118).
2

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 3 of 21

Agents positioned themselves at various locations throughout the area. (Id. at
35). At approximately 1:00 PM, agents saw an orange truck at the complex, near
unit 9101. (Id. at 72). The truck left, but later that day, at around 4:40 PM, it
returned. (Id. at 72-73). Elie was driving the truck, and Clark was sitting in the
passenger seat. (Id. at 74). Elie drove the truck past empty parking spaces in front
of unit 9101 and into the parking deck, where he parked, facing the truck outwards
so that it was looking in the direction of unit 9101. (Id. at 72-73, 76). Agents
watched as Elie got out of the car, and walked around the truck to the passenger
side. (Id. at 77). Once there, Clark handed Elie a red bag. (Id.). Elie took the bag,
walked out of the parking deck and into the 9000 building breezeway, toward unit
number 9101. (Id. at 79).
After Elie walked into the breezeway, Clark stayed in the car for approximately
five minutes before driving out of the apartment complex. (Id. at 80). About ten
minutes later, Clark returned. (Id. at 80-81). Once parked, Clark remained in the
driver's seat and looked around. (Id. at 82). He stayed there for approximately ten
minutes, only to leave again. (Id.).
Approximately 15 minutes later, Clark returned to the apartment complex. Elie
got in the car, and agents followed as Clark drove the truck out of the apartment
complex. (Id. at 91, 94). After Clark left the apartment complex, a Georgia State
Patrol Officer got behind Clark, and subsequently initiated a traffic stop. (Doc.
152-34, 42). When the officer did so, Clark slowly pulled over into the left
emergency lane, but never came to a stop; instead, he began accelerating and
attempted to flee, and in doing so, struck an undercover officer's car, spinning his
3

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 4 of 21

own vehicle and hitting another law enforcement car.

(Id. at 42-45, 77). After

hitting the police cars, Clark jumped out of the driver's side door, and Elie jumped
out of the passenger's side door, and both began running on the interstate, going
in different directions. (Id. at 46,65). The Patrol Officer caught up to Clark. (Id. at
45-46).
After Clark and Elie were arrested, agents searched the truck and found the red
bag, $24,793 in cash, two kilograms of heroin (worth approximately $104,000 to
$108,000), and three cell phones. (Id. at 211; Doc. 149-94, 115). Agents obtained
search warrants for the three phones found in the car (consisting of an LG, a Nokia,
and an Apple iPhone), as well as an Apple iPhone found on Elie when he was
arrested. (Doc. 149-99). Agents were unable to search the two Apple iPhones,
however, given the phones' security features. (Id.). The Nokia phone was too
damaged to search. Agents, however, were able to recover information from the
LG phone.

Among the information recovered was a text in which Clark's

girlfriend asked him to send her a picture, Clark responded,"... I'm working now
...." (Id. at 135). Clark sent that text at 5:48 PM, dining the time that agents were
conducting their surveillance. (Id.). The government also presented evidence
showing that Clark had previously been convicted of selling heroin on two
separate occasions in Florida in 2013. (Id. at 47).
C. Agent Engle's Trial Testimony
Special Agent Charles Engle was one of the agents conducting surveillance at
the apartment complex on March 9,2015. (Id. at 67). Agent Engle testified at trial
about what he observed during surveillance. (Id. at 55). Near the beginning of his
4

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 5 of 21

testimony, the government asked, "Are you familiar with countersurveillance?"
(Id. at 57). When Agent Engle responded that he was, the government followed
up by asking, "And what is that?" (Id.). Defense counsel objected, asserting that
the government had not provided expert notice under Federal Rule of Criminal
Procedure 16, and that "testimony based on experience is what expert testimony
is." (Id. at 58, 64). The Court tabled the issue so that it could research the law
before ruling. (Id. at 59).
After researching the law, the Court sustained Clark's objection to the
government's question about countersurveillance. (Id. at 109). After sustaining
Clark's objection to the government's request for Agent Engle to explain
countersurveillance, the Court permitted testimony from Agent Engle about what
he personally observed and conclusions he drew from those observations. After
Agent Engle explained that Clark had driven out of the complex, only to return a
short while later, park, and look around, the government asked, "Based on your
observations, Agent Engle, what did you think was happening at the time?" (Id.
at 117). Agent Engle testified:
Because [Clark] had parked, had passed up open parking
spaces, had parked in line of sight similar to where we had
parked and had a view of the apartment, I believed he was
conducting countersurveillance or acting as a lookout... I also
observed him looking around. I could see his head moving as
though he was looking around the apartment complex.
(Id.).

5

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 6 of 21

The government responded by asking, "How did that affect your level of
suspicion about the orange truck at that time?" (Id.). Agent Engle explained:
I believed that the orange truck had delivered money to the
apartment and was going to obtain heroin from the apartment.
I believed that the driver was posing as a lookout, because I saw
him looking around the complex, and also where he parked. I
believed that he was involved. So my level of suspicion was
heightened.
(Id. at 118).
Agent Engle also observed Clark driving the truck slowly through the
apartment complex as he and Elie were leaving, and, based on that observation,
Agent Engle testified, "I believe the vehicle was traveling slowly to see if anyone
— the driver was driving the vehicle slowly to see if anyone was following." (Id.
at 118-19).
D. Conviction and Sentencing
After hearing evidence, the jury found Clark guilty on count one, the
conspiracy charge, and not guilty on count two. (Doc. 124). On September 12,
2016, the Court sentenced Clark to 156 months' imprisonment, to be followed by
five years' supervised release, and ordered him to pay a $100 special assessment
and $22,822 in restitution. (Doc. 135).
E. Clark's Appeal to the Eleventh Circuit
On September 23,2016, Clark initiated an appeal to the Eleventh Circuit. (Doc.
136).

The single issue raised on appeal was whether the Court abused its

discretion in admitting the opinion of Agent Engle that Clark was engaged in
6

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 7 of 21
%.

countersurveillance. Specifically, Clark argued that the Court erred by permitting
Agent Engle to testify as a lay witness that, based on Clark's behavior, the agent
believed Clark was acting as a lookout during the drug transaction. United States
v. Clark, 710 F. App'x 418, 421 (11th Cir. 2017), cert, denied, 138 S. Ct. 2663 (2018).
Because Agent Engle's testimony was based in part on his experience as a lawenforcement officer, argued Clark, Agent Engle's statements were expert
testimony and required notice. Id.
In affirming Clark's conviction, the Eleventh Circuit stated that, "[c]ontrary to
Clark's argument on appeal, we have recognized that a law-enforcement officer
may testify based on knowledge gained from his experience in a particular field,
and that testimony does not necessarily qualify as 'specialized knowledge' within
the meaning of Rule 702." Id. at 422.
The Eleventh Circuit further noted that "the district court specifically
prevented Agent Engle from testifying about Clark's actions based on any
specialized knowledge; the government elicited testimony only as to Agent
Engle's perception based on his observation of Clark's actions." Id. At trial,
"Agent Engle did not testify on direct examination regarding what
'countersurveillance' is or make any general observations regarding conspirators
in a drug ring." Id. Therefore, "the district court did not clearly err in permitting
the agent to testify as a lay witness that, based on his observations, he believed
that Clark was acting as a lookout during the drug transaction." Id.
Importantly, the Eleventh Circuit's decision did not end there. The court
further expounded that, "even if the district court did abuse its discretion in
7

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 8 of 21

admitting Agent Engle's opinion testimony that Clark was acting as a lookout, any
error was harmless" because "[significant evidence, aside from Agent Engle's
opinion that Clark was acting as a lookout, showed that Clark conspired to possess
with intent to distribute heroin." Id.
F. Clark's Instant Motion for Habeas Relief
On August 31, 2018, Clark filed the instant petition for relief pursuant to 28
U.S.C. § 2255.2 Clark advances four grounds for relief. First, Clark argues that his
counsel was ineffective for failing to file a motion in limine with respect to Agent
Engle's testimony regarding countersurveillance. Second, Clark argues that his
counsel was ineffective for failing to request special jury instructions regarding
expert and lay testimony. Third, Clark argues that his counsel was ineffective for
failing to challenge evidence of his prior convictions. Fourth, Clark argues that his
cell phone records were inadmissible pursuant to Carpenter v. United States, 138 S.
Ct. 22206 (2018). None of these grounds provide a basis upon which to vacate
Clark's sentence or conviction as they are legally unsound, factually inaccurate,
and devoid of any merit.

2 The petition is timely because it was filed within one year of the judgment of
conviction becoming final. See 28 U.S.C. § 2255(f)(1). In this case, Clark's
conviction became final on June 18,2018, when the Supreme Court denied Clark's
petition for certiorari. See Washington v. United States, 243 F.3d 1299,1301 (11th Cir.
2001) (holding that where a defendant is unsuccessful on appeal and files a petition
for certiorari with the Supreme Court, the one-year period begins to rim when the
Supreme Court either denies certiorari or issues a decision on the merits).
8

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 9 of 21

Argument
A. Clark Carries a Heavy Burden on His Ineffectiveness Claims, With
Habeas Relief Available in Only the Rarest of Cases.
Ineffective assistance of counsel claims are subject to the two-part test
enunciated in Strickland v. Washington, 466 U.S. 668 (1984). First, the defendant
must show that "counsel's representation fell below an objective standard of
reasonableness." Id. at 688. In applying this "highly deferential" test, reviewing
courts "must indulge a strong presumption that counsel's conduct falls within
the wide range of reasonable professional assistance." Id. at 689; see also Lancaster
v. Newsome, 880 F.2d 362,375 (11th Cir. 1989) (emphasizing "that petitioner was
not entitled to error-free representation"). To establish "that an attorney's
strategic choice was unreasonable, a petitioner must establish that no competent
counsel would have made such a choice." Provenzano v. Singletary, 148 F.3d 1327,
1332 (11th Cir. 1998); see White v. Singletary, 972 F.2d 1218,1220 (11th Cir. 1992)
("The test has nothing to do with what the best lawyers would have done. Nor
is the test even what most good lawyers would have done. We ask only whether
some reasonable lawyer at the trial could have acted, in the circumstances, as
defense counsel acted at trial."). This "strong presumption in favor of
competence" places a "heavy" burden on petitioners alleging ineffective
counsel, Fugate v. Head, 261 F.3d 1206,1217 (11th Cir. 2001) (citation omitted),
and "cases in which habeas petitioners can properly prevail on the ground of
ineffective assistance of counsel are few and far between," Rogers v. Zant, 13 F.3d
384,386 (11th Cir. 1994).

9

Case 1:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 10 of 21

Second, the defendant must establish prejudice by showing "that counsel's
errors were so serious as to deprive the defendant of a fair trial, a trial whose
result is reliable." Strickland, 466 U.S. at 687.

Even a "professionally

unreasonable" error by counsel "does not warrant setting aside the judgment of
a criminal proceeding if the error had no effect on the judgment." Id. at 691. Thus,
to satisfy the prejudice prong, the defendant "must show that there is a
reasonable probability that, but for counsel's unprofessional errors, the result of
the proceeding would have been different." Id. at 694; Grayson v. Thompson, 257
F.3d 1194,1225 (11th Cir. 2001) ("Under the prejudice prong of Strickland, it is not
enough for the defendant to show that the errors had some conceivable effect on
the outcome of the proceeding." (internal quotations and citation omitted)).
A court need not address both of these prongs "if the defendant makes an
insufficient showing on one." Strickland, 466 U.S. at 697. The prejudice prong
may be considered first. Id. "If it is easier to dispose of an ineffectiveness claim
on the ground of lack of sufficient prejudice, Which we expect will often be so,
that course should be followed." Id.
B. Clark's Counsel Was Not Ineffective For Failing To File Motions in
Limine With Respect to Agent Engle's Testimony
Clark first complains that his counsel performed ineffectively by failing to file
motions in limine challenging Agent Engle's testimony with respect to
countersurveillance. Despite Clark's claims, his counsel successfully challenged
the scope of Agent Engle's testimony - and thus counsel was not ineffective nor
was Clark prejudiced.

10

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 11 of 21

The facts in this case show that Agent Engle testified as a government witness.
On direct examination, Agent Engle was asked if he was familiar with
countersurveillance.

Before Agent Engle had a chance to explain what

countersurveillance is, Clark's counsel objected and argued that the line of
questioning elicited expert testimony. After consideration of the arguments and
relevant case law, the Court sustained Clark's counsel's objection and limited the
testimony of Agent Engle to what Agent Engle personally observed and
conclusions he drew from those observations.
Although Clark's counsel objected to the scope of Agent Engle's testimony at
the first available opportunity - i.e. when testimony of countersurveillance was
elicited for the first time at trial - Clark seems to argue now that his counsel should
have challenged the testimony through pretrial motions in limine. This argument
misses the mark. As a practical matter, Clark's counsel did not know the detailed
specifics of Agent Engle's testimony before Agent Engle took the witness stand.
The government did not disclose the opinion testimony of Agent Engle prior to
trial because it was not intended as expert testimony. Therefore, the failure of
Clark's attorney to file pretrial motions in limine to exclude the testimony was not
unreasonable.

Lawyers cannot be charged with the supernatural duty of

foreseeing a lay witnesses' full trial testimony before trial even begins (and filing
motions in limine to exclude certain parts of that future testimony). Instead,
lawyers are expected to make objections during trial as issues arise. That is exactly
what Clark's counsel did.

11

Case 1:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 12 of 21

Not only was counsers conduct well within the wide range of reasonable
competence, his decision to object to the scope of Agent Engle's testimony was, in
fact, successful. As the Eleventh Circuit explained, "[t]he district court specifically
prevented Agent Engle from testifying about Clark's actions based on any
specialized knowledge; the government elicited testimony only as to Agent
Engle's perception based on his observation of Clark's actions on the day of the
heroin transaction." Clark, 710 F. App'x at 422. As such, "Agent Engle did not
testify on direct examination regarding what 'countersurveillance' is or make any
general observations regarding conspirators in a drug ring." Id. The Court's
decision to limit Agent Engle's testimony as to countersurveillance resulted solely
from defense counsel's effective performance.
Here, Clark fails not only to show that his attorney's performance was deficient,
but he fails to show that he was prejudiced because the admission of Agent Engle's
testimony did not affect the outcome of his trial. The evidence against Clark at
trial was overwhelming. The Eleventh Circuit agrees. In its opinion, the Circuit
Court stated: "even if the district court did abuse its discretion in admitting Agent
Engle's opinion testimony that Clark was acting as a lookout, any error was
harmless. Significant evidence, aside from Agent Engle's opinion that Clark was
acting as a lookout, showed that Clark conspired to possess with intent to
distribute heroin." Id. (internal citation omitted). Thus, Clark's claim must be
rejected because he cannot satisfy his burden under either prong of Strickland.3
3 Clark also argues summarily that "assuming no pretrial prep neglect," the
government was required to provide pretrial notice of Agent Engle's testimony.
(Doc. 163-1 at 8-9). The government's failure to do so, Clark argues, violated his
12

Case 1:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 13 of 21

C. Clark's Counsel Was Not Ineffective For Failing to Request A Special
Jury Instruction
Clark next complains that his counsel was ineffective for failing to request
special jury instructions regarding expert and lay testimony. This argument fails
for the same reasons mentioned above. Because the Court limited the scope of
Agent Engle's testimony to what Agent Engle observed and what he believed
based solely upon those observations (i.e. lay witness testimony), an "expert
witness" instruction would not have been appropriate. No witness was qualified
as an expert and no expert testimony was elicited during the course of Clark's trial.
Thus, it was reasonable for counsel to decline requesting such an instruction.
Counsel's failure to request a jury instruction completely irrelevant to any
testimony that the jury had to consider simply cannot serve as a basis for
ineffectiveness.

r\

\-—/i

due process rights. This argument is procedurally barred. On the one hand, it
appears that Clark attempts to recast the same arguments that were raised on
direct appeal - that is, Agent Engle's statements constituted expert testimony and
should have been noticed under Rule 16. In that instance, "[i]t is long settled that
a prisoner is procedurally barred from raising arguments in a motion to vacate his
sentence, 28 U.S.C. § 2255, that he already raised and that [were] rejected in his
direct appeal." Stoufflet v. United States, 757 F.3d 1236, 1239 (11th Cir. 2014)
(collecting cases). On the other hand, Clark is also procedurally barred from
bringing claims that were not raised on direct appeal. To the extent Clark raises
due process and other constitutional claims - all of which could have been raised
on appeal - these claims are barred. See Lynn v. United States, 365 F.3d 1225,1232
(11th Cir. 2004). Clark sets forth no basis warranting an exception to these
procedural bars.

13

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 14 of 21

Notably, "[t]he purpose of jury instructions is to give the jury a clear and
concise statement of the law applicable to the facts of the case." Gowski v. Peake,
682 F.3d 1299,1315 (11th Cir. 2012). There must be a basis in the record for the
jury instruction in order to avoid error. See id. Here, it is likely that the Court
would have denied any request for an expert testimony jury instruction because,
with no expert witness at trial, there was no basis in the record for the instruction.
Thus, counsel's failure to request the instruction was not ineffective nor did it
cause prejudice to Clark's case. See generally Stephens v. United States, 14 F. Supp.
2d 1322, 1331- 32 (N.D. Ga. 1998) (noting that the movant could not establish
ineffectiveness or prejudice for counsel's failure to request jury instruction on
entrapment, in part, because the case did not feature evidence of entrapment.).
D. Clark's Counsel Was Not Ineffective For Failing to Object to Admission
of Prior Convictions
Next, Clark complains that his counsel was ineffective for failing to object to
the admission of his prior convictions. Specifically Clark states that "[cjounsel was
ineffective for not filing a motion in limine." (Doc. 163-1 at 114.). This contention,
like the others, can be summarily denied upon a plain review of the record. Prior
to trial, the United States filed an appropriate notice under Federal Rule of
Evidence 404(b) indicating that it would attempt to introduce evidence of Clark's
prior convictions for distribution of heroin on two separate occasions. (Doc. 104).
Clark's counsel did, in fact, file a timely motion in limine - which highlighted

14

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 15 of 21

twelve circuit court cases4 - and requested that evidence of Clark's prior
convictions be excluded from trial.

(Doc. 105).

The Court considered the

arguments presented by both Clark's counsel and the government, and ultimately
denied Clark's motion. (Doc. 112). As such, Clark's argument that his counsel
failed to object to the admission of his prior convictions is squarely refuted by the
record and fails as a matter of fact.5
As the Court carefully reasoned, the evidence of Clark's prior convictions were
admissible under Rule 404(b) for several reasons. First, Clark's not-guilty plea to
the conspiracy charge rendered Clark's intent a material issue. (Id. at 3.) (citing

4 Clark appears to argue that his counsel was ineffective for failing to cite two
cases in support of his argument to exclude evidence of his prior convictions United States v. Phaknikone, 605 F.3d 1099,1101 (11th Cir. 2010) and United States v.
Beechum, 582 F.2d 898,902 (5th Cir. 1978). Neither case, however, would have been
helpful to Clark's position as neither case addresses the admission of prior
convictions. In addition, both cases articulate fundamentally the same standard
applied by this Court in evaluating Clark's motion in limine.
5 Clark also submitted an affidavit attesting to several statements and
allegations - many of which are already addressed herein, easily refuted by the
record, and inconsistent with the facts of this case. (Doc. 163-1 at 20). For example,
Clark states that he asked Attorney Samuels "if he could challenge the
government's use of his prior charges at trial, and Attorney Samuels said no." (Id.).
This is completely inconsistent with the fact that counsel did challenge the
admissibility of Clark's prior convictions. Other allegations in the affidavit are
bare and conclusory. Specifically, Clark states that Attorney Samuel did not
review trial strategies or discovery with Clark. These blanket statements do not
warrant relief because such conclusory allegations of ineffective assistance are
insufficient. See generally Wilson v. United States, 962 F.2d 996, 998 (11th Cir. 1992)
(per curiam). This self-serving affidavit is of no reasonable reliability.
15

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 16 of 21

United States v. Sanders, 668 F.3d 1298,1314 (11th Cir. 2012.) And, evidence of
Clark's prior drug convictions were highly probative of intent. Second, the fact
that Clark was convicted of his prior drug dealings was sufficient to establish that
Clark committed the act of selling drugs. (Id. at 4.) Third, the Court found that
"the probative value of these prior convictions outweighs any undue prejudice
because the prior convictions relate to the same controlled substance and occurred
less than two years before the conduct in the instant offense." (Id.)6 Clark's prior
convictions were properly admitted at trial.
Even if Clark's prior convictions were improperly admitted - which they were
not, Clark's claim here is procedurally defaulted as he failed to raise this claim on
direct appeal. Collateral attack may not be used as a substitute for direct appeal.
Lynn v. United States, 365 F.3d 1225,1232 (11th Cir. 2004). The "defendant must
assert all available claims on direct appeal." Id. A claim not raised on direct appeal
may be raised on collateral review only if the defendant shows cause and
prejudice. Id. A procedural default may also be excused if the defendant is
"actually innocent" and a constitutional error probably resulted in the conviction.
Id. at 1234. Clark did not raise this claim on direct appeal. He has not established

6 In light of the Court's pretrial order, Clark's counsel negotiated a stipulation
with the government to minimize the evidence of Clark's prior convictions at trial.
At trial, Agent Ledgerwood read the following stipulation: "Defendant Woodrow
Andrew Clark has been convicted of selling heroin on two prior occasions in
Hillsborough County, Florida. He sold one gram of heroin on December 5, 2013,
and he sold 6.2 grams of heroin on December 23, 2013." (Doc. 149-47).
16

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 17 of 21

cause or actual prejudice, necessary to obtain habeas review of his procedurally
defaulted claim, and also has no viable claim to actual innocence.
Because Clark's claim is factually inaccurate and procedurally barred, it must
be denied.
E. The Admission of Evidence From Clark's Phones Was Not Error
Prior to trial, the government obtained federal search warrants for two of
Clark's phones that were left in the vehicle that Clark was driving when he
attempted to flee from law enforcement. On one of the phones, the agents were
able to remove some photographs and text messages. These phones and their
contents were admitted into evidence.
In his petition, Clark cites Carpenter v. United States, 138 S. Ct. 2220, for the
proposition that the cell phone data was improperly admitted into evidence at
trial. In the recent Carpenter decision, the Supreme Court held, under the specific
facts of that case, "the Government must generally obtain a warrant supported by
probable cause before acquiring" historical cell site records. Id. at 2221-23. Clark's
reliance on Carpenter is wholly misplaced.
First, the Carpenter decision, which was rendered earlier this year, has no
application to records that were obtained and introduced in the 2015 trial of this
case. See United States v. Gaskin, No. l:17-CR-00370-MHS-JSA, 2018 WL 4926331,
at *2 (N.D. Ga. Sept. 7, 2018) (holding that Carpenter did not mandate the
suppression of historical cell site records obtained before Carpenter was decided
where government acted in good faith).

Second, the decision in Carpenter

specifically requires search warrants to obtain historical cell site records. No cell
17

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 18 of 21

cite records were obtained in the investigation of this case, nor were any cell cite
records introduced at trial. Carpenter has no applicability to the search of contents
on a cell phone and thus no applicability to this case. Third, even if Carpenter did
apply - which it does not - the government did, in fact, obtain lawful search
warrants to search Clark's phones. (Doc. 149-98). Clark's argument here fails
simply as a matter of law.
F. Clark Is Not Entitled to an Evidentiary Hearing
A motion filed under § 2255 may be denied without an evidentiary hearing
"when 'the motion and the files and records of the case conclusively show that the
prisoner is entitled to no relief.'" Gordon v. United States, 518 F.3d 1291,1301 (11th
Cir. 2008) (quoting 28 U.S.C. § 2255(b)); see also Rules Governing § 2255
Proceedings, Rule 8(a). The existing record in this case establishes conclusively
that Clark is not entitled to the requested relief. No further factual development
is required. Accordingly, no evidentiary hearing is required to dispose of his
motion.
G. A Certificate of Appealability Is Not Warranted
Rule 11(a) of the Rules Governing § 2255 Cases in the United States District
Courts provides that the "district court must issue or deny a certificate of
appealability ["COA"] when it enters a final order adverse to the applicant."
Pursuant to 28 U.S.C. § 2253, a court may issue a COA "only if the applicant has
made a substantial showing of the denial of a constitutional right," and the COA
must indicate which specific issues demonstrate the denial of that right. 28 U.S.C.
§ 2253 (c)(2-3).

Furthermore, to obtain a COA, a petitioner must show that
18

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 19 of 21
t ■*

"reasonable jurists would find debatable both: (1) the merits of an underlying
claim; and (2) the procedural issues that he seeks to raise." Riggs v. United States,
No. 18-12111-F, 2018 WL 4030641, at *1 (11th Cir. July 20, 2018) (citing Slack v.
McDaniel, 529 U.S. 473,475 (2000)).
Here, Clark has not made a substantial showing of the denial of a constitutional
right. Each of Clark's claims are frivolous and contravene the existing record and
controlling law. The record and relevant law establish that Clark's counsel at all
times provided the reasonably effective assistance required by the Sixth
Amendment. In addition, Clark was not prejudiced in any way by his counsel's
performance. The resolution of Clark's claims are not debatable among jurists of
reason, and the questions do not deserve encouragement for further proceedings.
Accordingly, Clark is not entitled to a COA.
Conclusion
WHEREFORE, the United States respectfully requests that the Court deny
Clark's Motion under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct and deny
an evidentiary hearing.

Respectfully submitted,
Byung J. Pak
United States Attorney

/s/ANGELA ADAMS
Assistant United States Attorney
19

f

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 20 of 21

r*

Georgia Bar No. 613114
Angela.Adams@usdoj.gov
600 U.S. Courthouse
75 Ted Turner Drive S.W.
Atlanta, GA 30303
(404) 581-6000 fax (404) 581-6181

20

Case l:15-cr-00104-SCJ-AJB Document 165 Filed 10/26/18 Page 21 of 21

Certificate of Service
The United States Attorney's Office served this document today by filing it using
the Court's CM/ECF system, which automatically notifies the parties and counsel
of record and mailed to Defendant at:
Woodrow Andrew Clark
#66836-091
FCI Jesup-Medium
2680 U.S. Highway 301 South
Jesup, Georgia 31559
October 26,2018
/s/ Angela Adams
Angela Adams
Assistant United States Attorney

>r

Appendix C

Order Denying Petition for Rehearing
filed November 12, 2020

Appendix C

USCA11 Case: 20-10526
USCA11 Case: 20-10526

Date Filed: 11/24/2020
Page: 3 of 4
Date Filed: 11/12/2020 Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10526-A
WOODROW ANDREW CLARK,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Northern District of Georgia
Before: JILL PRYOR and BRASHER, Circuit Judges.
BY THE COURT:
Woodrow Clark has filed a motion for reconsideration, pursuant to 11th Cir. R. 27-2 and
22-1 (c), of this Court’s July 31,2020, order denying a certificate of appealability, and denying as
moot leave to proceed on appeal in forma pauperis.

Upon review, Clark’s motion for

reconsideration is DENIED- because he has offered no new evidence or arguments of merit to
warrant relief.

Appendix C

Appendice C-l

Motion in Response to Count Order Denying
Certificate of Appealability by Request
for Rehearing with Suggestion for Rehearing
En Banc filed October 19, 2020

Appendice C-l

In The United States Court of Appeals
For The Eleventh Circuit Court

Woodrow Andrew Clark
v.
United States of America

Case No: 2010526-A

Motion In Response To Court Order Denying Certificate Of Appealability By
Request For Rehearing With Suggestion For Rehearing En banc
Comes now, Woodrow A. Clark, pro se, on this 19th day of October, 2020,
(herein known as petitioner), requesting a rehearing with suggestion for
rehearing en banc where as the court has mistakenly over-looked constitutional
violations against petitioner. In support of petitioner states as follows:
Statement of Facts
Counsel convinced petitioner to proceed to trial and was convicted by a
jury of conspiracy to possess with intent to distribute heroin. It should be known
that the co-defendant in the case admitted the drugs was his alone and petitioner
knew nothing of them and had no party to them.

Statement of the Case

1

Appendice C-l

A defense counsel must be diligent with arguments when representing a
client at trial. Counsels’ ineffectiveness is being over-looked in this instance where
an agent is an expert in his profession and should’ve made that known, not only
to the court, but also to the jury because they (agents), are trained to be deceitful
in order to interrogate and obtain confessions from a defendant even to the point
of lying.
In the instant case to allow the agent to give testimony as a lay person
allowed the jury to fail to debate whether an agent used his professional analysis
of a situation as opposed to an opinion of one of their own, lay person/citizen. An
agent of the government/court allowed to testify outside his professional capacity
allowed the jury to rely on the opinion of a citizen and not facts. Facts that are
debatable, (case law omitted)
The constitution guarantees equal protection of the law to all citizens and
petitioners ineffectiveness claim is debatable where jurist, reasonable jurist if
given the details of an agents expertise and capabilities would find the courts’
assessment of these constitutional claims debatable and wrong in accordance
with the Supreme Courts holdings in Slack v McDaniel, 529 U.S. 473,484 (2000),
clearly counsel’s performance deficient.

In Strickland the deficient performance prejudiced the defense, as this
honorable court pointed out, also shows petitioner may have had a different
result out of the proceeding, noting petitioner having nothing to do with the
heroin, his co-defendant claimed full responsibility. In claim 1 it’s clear an
understanding about a professionals expert testimony by the agent and/or
opinion by a lay person/ordinary citizen, clearly would have made a difference in
the outcome of the proceedings, if the defense counsel had made an effective
defense argument that the constitution guarantees for fair atrial that is impartial.
(795 F. 2d 1230) (U.S. v Marshall 173 F. 3d 1312,1315 (11th Cir. 1999)) Reversal is
warranted because the only/key evidence, lay person testimony to support a
guilty verdict was speculative.
Clearly the role of an advocate on petitioner’s behalf is void despite
defense counsel objection. Counsel was unable to give persuasive sound
knowledge of legal principles because testimony given by the respected agent
was in itself damaging precluding petitioner from proceeding without impartially
having allowed the jury to rely on an opinion from a lay person and not an agent
in his professional capacity, absent specific instructions to the jury. Counter
surveillance was only a theory.

That jury instruction was vital to petitioners’ defense as it would have
allowed the jury to know the difference between an expert and a lay person as
well as an agent’s ability that include training outside physical training, a training
that involves mental and psych training. (New York; People v Mosby, 78 A.D. 3d
1371 (N.Y. App. Div. 3d Dept. 2010) (discussing whether failure to request court
instruction constituted ineffective assistance). Fair assessment by jurors of,
petitioners’ peers, of the testimony/evidence.
Clearly prejudicing petitioner allowing proffer testimony that allowed
jurors to decide innocence or guilt on opinionated evidence and not fact. All the
aforementioned supporting grounds 1 and 2 in violation of petitioners

q st

Amendment right to redress along with the constitutions right of equal
protection, the right to a fair and impartial trial and effective assistance of counsel
including effective assistance throughout every phase, which includes the plea
bargaining phase. (Lafler v Cooper; Missouri v Frye Supra!)
Whether or not a trial court would have granted the motion to exclude
or sustain the objection to evidence of a prior conviction, case law is clear part of
the 6th Amendment right is a jury determines a defendants’ sentence. (Allyne
Supra!) Counsel should have not only instructed petitioner on the plea, being

there and driving the vehicle while running from the agents, he should have asked
the court to instruct the jury on how to determine petitioners sentence as
guaranteed by the 6th Amendment, ground 3.
Ground 4 concerning search warrant for petitioners’ cell phone will not be
addressed in this instant but not abandoned.
Petitioner has made a clear showing of a violation of constitutional rights
that warrant granting petitioners’ request for rehearing with suggestion for
rehearing en banc that cannot be denied being governed by the constitution and
the right of the 1st Amendment of redress, grievance or appeal.
Petitioner asks all laws applicable herein, along with the constitutions’
equal protection of the laws mentioned herein be applied to the petitioner.
Wherefore, petitioner prays this honorable court grant this motion,
granting petitioners’ request for rehearing with suggestion for rehearing en banc
allowing pursuant to F.RAP. petitioner a multi-panel judge review of all the issues
argued herein.

,
Respectfully Submitted,
/s/.
Woodrow A Clark 66836-019

Un-Notarized Oath
I, Woodrow A. Clark, on this 19th day of October, 2020, do hereby declare,
under penalties of perjury that the information herein is true and correct to the
best of my knowledge.

/s/.
Woodrow A. Clark 66836-019

6

Certificate of Service

I, Woodrow A Clark, on this 19th day of October, 2020, do hereby
certify that a copy of the foregoing motion has been sent by U.S. mail to
Assistant U.S. Attorney Angela Adams at 75 Spring St. Atlanta, GA 30303.

/s/.
Woodrow A. Clark 66836-019
FCI Williamsburg
P.O.Box 340
Salters, SC 29590

7

Additional material
from this filing is
available in the
Clerk's Office.

